<html>
<title> - ELDER JUSTICE AND PROTECTION: STOPPING THE ABUSE</title>
<body><pre>[Senate Hearing 108-210]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 108-210
 
            ELDER JUSTICE AND PROTECTION: STOPPING THE ABUSE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON AGING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   ON

   EXAMINING THE SERIOUS PROBLEM OF ELDER ABUSE, DETERMINING WAYS OF 
 PREVENTION AND ENSURING THAT CRIMES AGAINST THE ELDERLY ARE REPORTED 
                  AND THOSE RESPONSIBLE ARE PROSECUTED

                               __________

                    AUGUST 20, 2003 (ST. LOUIS, MO)

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions







                       U.S. GOVERNMENT PRINTING OFFICE
89-535                        WASHINGTON : 2003
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  JUDD GREGG, New Hampshire, Chairman

BILL FRIST, Tennessee                EDWARD M. KENNEDY, Massachusetts
MICHAEL B. ENZI, Wyoming             CHRISTOPHER J. DODD, Connecticut
LAMAR ALEXANDER, Tennessee           TOM HARKIN, Iowa
CHRISTOPHER S. BOND, Missouri        BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    JAMES M. JEFFORDS (I), Vermont
PAT ROBERTS, Kansas                  JEFF BINGAMAN, New Mexico
JEFF SESSIONS, Alabama               PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JACK REED, Rhode Island
LINDSEY O. GRAHAM, South Carolina    JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                  Sharon R. Soderstrom, Staff Director

      J. Michael Myers, Minority Staff Director and Chief Counsel

                                 ______

                         Subcommittee on Aging

                CHRISTOPHER S. BOND, Missouri, Chairman

LAMAR ALEXANDER, Tennessee           BARBARA A. MIKULSKI, Maryland
MIKE DeWINE, Ohio                    EDWARD M. KENNEDY, Massachusetts
PAT ROBERTS, Kansas                  PATTY MURRAY, Washington
JOHN ENSIGN, Nevada                  JOHN EDWARDS, North Carolina
JOHN W. WARNER, Virginia             HILLARY RODHAM CLINTON, New York

                    Kara R. Vlasaty, Staff Director

                Rhonda Richards, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                               STATEMENTS

                       Wednesday, August 20, 2003

                                                                   Page
Bond, Hon. Christopher S., a U.S. Senator from the State of 
  Missouri.......................................................     1
Ballenot, Martha, daughter of Burton Reese; and Francis (Steve) 
  Stevich, husband of Patricia Stevich...........................     4
Gruender, Ray, U.S. Attorney, for the Eastern District of 
  Missouri; James G. Gregory, First Assistant Prosecuting 
  Attorney, St. Charles County, MO; and Joanne Polowy, Missouri 
  Representative of the Association for the Protection of the 
  Elderly, New Bloomfield, MO....................................    12

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Martha Ballenot..............................................    27
    Francis M. Stevich...........................................    28
    Raymond W. Gruender..........................................    30
    James G. Gregory.............................................    31
    Joanne Polowy................................................    34
    Betty Willson................................................    35
    Joe Maxwell..................................................    37

                                 (iii)

  


            ELDER JUSTICE AND PROTECTION: STOPPING THE ABUSE

                              ----------                              


                       WEDNESDAY, AUGUST 20, 2003

                               U.S. Senate,
                      Subcommittee on Aging, of the
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
SE Courtroom, 27th Floor, Thomas F. Eagleton Federal 
Courthouse, 111 South 10th Street, St. Louis, MO, Senator Bond, 
(chairman of the subcommittee), presiding.
    Present: Senator Bond.

                   Opening Statement of Senator Bond

    Senator Bond. Good afternoon. The hearing before the 
Senate's Committee of Health, Education, Labor, and Pension, 
Subcommittee on Aging will come to order.
    I am Kit Bond, the Chairman of the Subcommittee and I 
welcome our witnesses and guests here today, and I thank you 
very much for joining us to talk about a subject which I think 
is of great importance and needs to have a lot more attention 
then it has had, and a lot more attention from the Federal 
Government.
    Abuse, neglect and exploitation of seniors is all too 
tragic an issue, but we simply cannot afford to look the other 
way and sweep this problem under the rug. However, unthinkable 
these crimes against vulnerable seniors are, they really do 
occur and we cannot pretend that they do not exist.
    Tragically, I fear these are not isolated incidents. And 
the number of victims will only continue to increase as our 
population ages unless we take decisive and effective steps to 
prevent this abuse from occurring in the first place.
    Abuse and mistreatment of our seniors takes many forms. It 
can be physical, sexual, psychological or financial. The 
perpetrator can be a stranger, an acquaintance, a paid 
caregiver, a spouse, another family member, or a corporation. 
Elder abuse, I regret to tell you, happens everywhere. In poor 
homes, in middle class homes and in upper income homes. It 
happens in cities, in suburbs, in rural areas. It happens in 
homes, as well as in institutions.
    Elder abuse does not discriminate. It knows no demographic 
or geographic boundaries. Now, some abusers are criminals who 
prey on the elderly. Others are caregivers or relatives who 
were pushed to the brink and are overwhelmed by the needs of 
their family members or their charge. Some are institutions 
that simply do not provide residents the care they need. Then 
there are the scam artists who try to profit at the expense of 
seniors.
    There are studies which report that 4 to 6 percent of 
America's seniors may at some time become victims of some form 
of abuse or neglect. Other estimates say between a half a 
million and 5 million elderly are victimized every year. The 
research is inconclusive. We just do not know how many seniors 
have been victimized. Somebody asked me how does Missouri 
compare to other States, well, we do not know how other states 
compare to other States. We do not have good information.
    But we do know the issue has not received the attention it 
needs. Experts agree that we have only scratched the surface. 
One study estimated that 84 percent of all cases are never even 
reported. So we hear about horrific cases, but there are 
perhaps five or six more cases for every one that is reported.
    Let me say up front, this is not an indictment in any way 
of the entire nursing home industry. I recognize, and this 
Committee recognizes, there are many fine nursing homes in 
Missouri and across the country that provide exceptional care.
    However, the prevalence of abuse highlighted by several 
governmental accounting office investigations has forced us to 
come to grips with the fact that, in some instances, our 
Nation's public policy has been unable to ensure adequately the 
safety of nursing home residents. GAO's work confirms that 
significant gaps in Federal and State protection leaves some 
residents at considerable risk.
    The GAO has amply documented years of abuse and neglect in 
too many of our Nation's nursing homes. In 1999, the GAO 
estimated that residents of one in four nursing homes in 
Missouri suffered actual harm from the care they received. That 
is simply unacceptable. It is worse than unacceptable. In many 
instances, it is a crime.
    In July, the GAO revisited this issue to report that the 
shear magnitude of documented serious deficiencies that harm 
nursing home residents remain at an unacceptable high 
nationwide level despite some decline. For the most recent 
period reviewed by the GAO, one in five nursing homes 
nationwide, or about 3500 nursing homes, had serious 
deficiencies that causes residents actual harm and placed them 
in immediate jeopardy.
    We can and we must do better. In large part, societies are 
judged by how well they care for those who cannot care for 
themselves, the young and the old. And right now, we cannot 
avoid the rather harsh judgment imposed upon us by these cruel 
statistics. We are not measuring up.
    Most importantly, there is a moral imperative that drives 
us to look at the human beings behind these statistics, our 
mothers, fathers, grandmothers and grandfathers. We should not 
longer look away. In a modern humane society, we simply cannot 
sit idly by and let some seniors suffer harm and neglect 
instead of the attentive and protective care they need and 
deserve.
    We cannot avoid the problem. We have to confront it and 
take the appropriate steps necessary to deal with the issues 
that touch every community. Abuse and neglect of an elderly, 
frail individual is no different than neglecting or abusing a 
child. Both are defenseless and lack a strong voice. Both are 
vulnerable and suffer at the hands of those who are nothing 
more than cowards and criminals.
    Abuse of the elderly should be treated no differently than 
abuse of children. A crime is a crime is a crime whether you 
are 5 years old or 85 years old.
    Congress has embraced initiatives to guard against child 
abuse and domestic violence, and rightly so, but there has been 
no comparable effort to protect seniors from elder abuse. That 
is why we are here today. We want to ensure that crimes against 
the elderly are reported and those responsible are prosecuted. 
And most importantly, we need to do a better job in the first 
place to prevent this abuse before it has an opportunity to 
occur.
    That is why I am an original co-sponsor of a bill called 
the Elder Justice Act, S. 333. The Bill is a first 
comprehensive Federal effort to address the issue of elder 
abuse. There have been hearings held on elder abuse in the 
Senate since 1979, and it is about time that we did something. 
Twenty Congressional hearings later we still do not have a 
Bill.
    This measure, S. 333, combines law enforcement and public 
health to study, detect, treat, prosecute and prevent elder 
abuse, neglect and exploitation. It is based on the successful 
approach, it has been applied to combat child abuse and 
violence against women. It creates Federal leadership and 
resources to assist families, communities and States against 
elder abuse. It coordinates Federal, State and local elder 
abuse prevention efforts. And it establishes new programs to 
assist victims. It provides grants for education and training 
of law enforcement and facilitates criminal background checks 
for elder care employees.
    The challenges we face in fighting elder abuse are 
formidable. The public, I regret to say, in large part, is 
unaware of the problem. State efforts to address elder abuse 
have not been adequately effective in the past. The 
perpetrators are seldom prosecuted and our front line 
responders often lack the training, the resources and the 
expertise to identify and address the problem. Various 
government agencies have failed too often to work in a 
collaborative and focused manner to protect seniors.
    Without question, tackling elder abuse is not a simple 
problem. It is a complex one requiring a comprehensive 
solution. I look forward to the comments and testimony today to 
help us, as we try to navigate these complex areas. I see the 
Elder Justice Act as an important part of the solution.
    Today I welcome the witnesses who have come to share their 
stories, and I thank you all for participating in the hearing. 
As I said earlier, most of the witnesses today will focus on 
abuse that occurs in some nursing homes. It is important to 
remember that elder abuse is not confined solely to some of the 
bad actor nursing homes or other institutions, the abuse occurs 
in the home as well.
    I told several of you the heartbreaking story from the 
other side of the State, Ms. Quinilla Swartz. Yesterday, we 
heard about that in Clay County. Her husband had left this 
disabled person on the rug, covered in large infected bedsores 
unable to move She had been on the rug so long that the parts 
of the rug were stuck to her body, and she had many other 
problems as a result of the neglect.
    Whether it occurs in a nursing home or in a home, elder 
abuse has been ignored too long. The purpose of the hearing is 
to bring awareness to the problem and provide an opportunity to 
hear people talk about what they have seen, the advocates who 
will speak about the causes and the possible suggestions for 
preventing the abuse.
    I thank all of you for coming here today. I would say that, 
for all of you who are here, if you have further comments that 
you would like to share with us--and I will give the you number 
later on--this is Kara Vlasaty, on my staff; she can be reached 
at 202-228-4838, and we would welcome any thoughts or 
additional ideas you have.
    Senator Bond. The first panel is family members who have 
seen first hand the abuse and neglect that can occur. Martha 
Ballenot will talk about her father, an Alzheimer's patient. I 
believe this the picture of him over here? And Steve Stevich 
will testify about the condition of his late wife, Patricia 
Stevich, who died in a Missouri nursing home.
    We are sorry to hear about your tragic occurrences. We will 
include in full your statement in the record for all the 
Committee members and others to read. If you wish to summarize, 
I will have some questions later on.
    And I call first on Ms. Ballenot.

 STATEMENTS OF MARTHA BALLENOT, DAUGHTER OF BURTON REESE; AND 
      FRANCIS (STEVE) STEVICH, HUSBAND OF PATRICIA STEVICH

    Ms. Ballenot. Thank you. Mr. Chairman and members of the 
committee. I am pleased to be here today to discuss with you 
the important issue of elder care in the United States.
    Senator Bond. Ms. Ballenot, would you pull that microphone 
a little closer to you? I think that will help me and the Court 
Reporter.
    Ms. Ballenot. Is that better?
    Senator Bond. Can you hear all right now? Thank you.
    Ms. Ballenot. My dad, Burton Reese, served his country in 
two wars, World War II overseas in China and the Korean 
conflict. He is now fighting the third war of his life, one my 
family calls Nursing Home Hell. After suffering a debilitating 
stroke in 1998, our Dad lived for the next year in two assisted 
living homes, four nursing homes, he was hospitalized 12 times. 
We kept thinking the next home would be better.
    For the past 4 years, he has been in residential care with 
no hospitalizations. For a while, he lived in a locked 
Alzheimer's wing located in the basement of a St. Louis County 
nursing home. At Christmas, the residents of this wing were 
served leftovers of the meals of the rest of the nursing home 
residents as their Christmas meal.
    The method of care here was to shoot the residents full of 
behavior control medication. This made the residents very 
manageable. One month we spent $3,000 on such medication.
    One Sunday, while the two attendants on duty were talking 
at the nursing station, a resident emptied his colostomy bag 
down the hallway. I told the workers about it and could not get 
any of them to clean it up. I had my 4 year old son with me. I 
had to choose between our Dad and getting my son out of there. 
I put my Dad in his room, picked up my son, left and went to 
the main office to complain.
    Daddy eventually was hospitalized from this facility for 
malnutrition, dehydration, a blood clot in his leg, external 
bruising. A doctor who attended him said the bruising was the 
kind of injury often associated with physical abuse. When 
confronted with these diagnoses, the management at the nursing 
home decided he was the problem and they evicted him from the 
home.
    The next move was to another local nursing home. We would 
visit him every day, sometimes twice a day. Daddy was very edgy 
there. He talked about being tried for murder and fighting in a 
war. We thought he was simply deteriorating. We know now this 
was his way of telling us he was being hurt. He especially 
hated the head nurse, he said she was a Nazi. We realized by 
calling the head nurse names, he was trying to point out to us 
who was hurting him.
    He was constantly agitated. The doctors told us this was 
normal and we should keep trying different behavior control 
medication. We believed the doctors, and it turned out, yes, 
this was normal behavior for someone who was being brutalized 
constantly by the people we trusted to care for him.
    One day, an employee reported to management that he had 
witnessed several other employees bribing another brain-damaged 
resident to beat our Dad as his caretaker stood by watching in 
amusement. He reported they had also dragged him on his knees, 
beat him with a belt on his bare legs as they were changing his 
clothes, hit him in the head with a book, locked him in a 
bathroom, and possibly overmedicated him, since one of the 
abusers was the med tech who dispensed medication.
    The nursing home took prompt action calling the police and 
firing the accused employees and their immediate supervisor. 
But it took a front page story in the St. Louis Post Dispatch 
to convince the St. Louis County prosecutor to press charges. 
These assaults on our Dad were labeled third degree abuse.
    This was not a career making case, so the assistant 
prosecutor assigned to his case did not feel it deserved his 
attention. He pressed on only after a letter writing campaign 
was mounted by my family. One of the abusers plea bargained for 
probation and the other had the charges dropped against him 
because the only witness, our Dad, was too demented to testify.
    The original abuser could not be found. He defied his 
subpoena and did not appear in court. No warrant was put out 
for his arrest, there was not consequence for his failure to 
show up in court. The convicted abuser did not agree, as part 
of his plea agreement, to testify against the other person 
charged in the case. When asked about this, the assistant 
prosecutor simply shrugged his shoulders at me and asked me 
what good would have that done.
    The med tech against whom the charges were dropped, was at 
work in another area nursing home within 2 weeks after being 
fired and charged with abuse. The Missouri Division of Aging 
decided that our Dad was a danger to the other residents and 
told the nursing home to get rid of him or be in danger of 
losing their license.
    It does not end here. Our lawyer, hired under the guise of 
being an activist, settled Daddy's case against the nursing 
home as soon as my sister, who holds our Dad's power of 
attorney, left town on vacation. He settled despite direct 
instruction from her, as well as an agreement with the nursing 
home and their insurance company, to the terms we had 
requested. Included in the terms was the implementation of a 
pilot project using surveillance cameras to monitor care.
    Currently, we have to worry and wonder when the Missouri 
Division of Aging will intrude on our Dad's life again, always 
under the pretense of concern for his safety. Our Dad has lived 
for 4 years in a group home that specialize in the care of 
Alzheimer's and dementia victims. The State does not have a 
classification for this type of home, so they try to impose 
archaic rules, rules that do not work even in a tradition 
nursing home setting upon this home.
    Even though our Dad has a condition where he will continue 
to deteriorate until he dies. The Division of Aging insists he 
be able to find a safe pathway out of the house, and that he be 
able to do that by walking without assistance of his care 
takers. In this setting, his care takers work at a ratio of 
three care takers to eight residents. In a nursing home, where 
the Division of Aging feels he would be safer, you have one 
care taker to 20 residents.
    The Division of Aging, when questioned about these actions, 
always blame the State legislators. They always claim to be 
powerless. Since 1998, we have tried to get help to stop the 
abuse from the Missouri Attorney General's office. He could not 
help because our Dad was private pay, not on Medicaid. Our 
State senator filed our letter because he thought the matter 
had been taken care of, though he failed to ever ask us about 
it or contact.
    The Missouri Department of Health took no action against 
the supervisor who did not know the abuse was happening on her 
shift. The list goes on and on. When Daddy first moved to his 
present facility in Creve Coeur, an eight bedroom residential 
facility, the other resident there was so demented that the 
only word he had been able to utter was coffee. And so the care 
takers at his previous nursing home gave it to him, cup after 
cup. When he arrived at the new facility, he was so dehydrated 
from drinking coffee, that he was blue. He died several weeks 
later.
    At another home, I could not allow my son to sit in a chair 
while he visited his grandfather because it was so badly 
stained with urine. At the second nursing home, I watched as 
employees unplugged the electric keyboard of a nonmobile 
patient because they did not care to listen to her play the 
piano.
    These are not isolated incidents, but daily occurrences in 
nursing homes across the country. What is the answer? Nursing 
home monitors for use by patients and their families and the 
Elder Protection Act are pieces of the puzzle, but not the 
entire picture. Personal responsibility is hard to legislate, 
but not so hard to demand.
    We need to demand that the State agencies serve the people, 
not the special interest. We need to demand that all nursing 
home deaths are investigated. We need to demand that people do 
their jobs, that the elderly are recognized as valuable 
citizens and not disposable nuisances. This will be you and me 
before too long. Is this how you want to live the final years 
of your life? Thank you.
    [The prepared statement of Ms. Ballenot follows.]
    Senator Bond. Thank you very much, Ms. Ballenot. That is a 
very difficult story and we appreciate you bringing it
    Mr. Stevich.
    Mr. Stevich. Yes. Thank you, Senator. Mr. Chairman, members 
of the committee, I appreciate the opportunity to speak to you 
on behalf of my dearly departed, most precious wife of 40 
years, who met her demise on Mother's Day in the year 2000.
    She was a very delicate, lovely lady with a great warmth 
and love for all living things. She had many diseases that took 
their toll on her for over 20 years, and her last 7 years had 
been very hard on her, with extreme pain and loss of ability to 
get around. She had the advanced stages of arterial sclerosis.
    She had a very difficult operation to enhance blood flow in 
her legs since it was shutting off all blood flow. She got 
gangrene in her little toe of that leg, and it had been finally 
healed, but without a toe nail. She remained in extreme pain 
since the nerves had been turned off in her leg and could not 
be turned off. She spent many days with many doctors trying to 
relieve the pain, with no success.
    In April of 2000, she became very ill and I put her in the 
hospital. After 10 days, she had become stable enough to leave 
the hospital, but still in need of medical care at a skilled 
nursing home for further recovery. My son found the Florissant 
Skilled Nursing Home for her, which was on the way to my work, 
so I could drop off every day since I literally passed by the 
home on my way to work. She was in the nursing home for 20 
days, and five of those days she had been taken back to the 
hospital.
    As I look back on the care she received, I realize that she 
was not fed very well, nor did they even give her water. I 
brought in a child's sippy cup at the direction of our four-
year-old granddaughter to help her be able to drink. It worked 
extremely well when I gave her water. I found at times the cup 
was not within her reach, and the lid was off when I would 
visit. When I talked to the nurses, they would tell me that she 
was on two-hour retraining program for input and output of body 
fluids, etc.
    At that time, when I would visit her during evening hours, 
I found her off to the side in a special feeding room with 
others and only one person feeding them all. I tasted her food 
and some of it was cold. I would ask why and they would say 
that she had eaten all she wanted to. My wife went from 90 
pounds down to 74 during her few days in that place.
    On Mother's Day 2000, I received a call from the nursing 
home that my wife had passed away peacefully during the night. 
I went to see her immediately after I called our children with 
the news and they showed up shortly after I arrived. We got her 
out of the home that afternoon and my son picked up her 
personal items the next day.
    We found quite a few items missing and complained about it 
to the home and the Division of Aging. The home literally did 
nothing, and one nurse's assistant yelled at me, saying my son 
had taken the items. The Division of Aging did nothing, as 
usual. I say that because they were informed about the illegal 
restraint that the home had put on my wife and did nothing 
about it to ensure safety.
    I assume that, since it was a professional staffed home, 
that all medical and safety procedures were followed. And since 
the Division of Aging was notified, that they would ensure safe 
use or removal of the restraint. When she was in the hospital, 
she had a restraint on her and all went well, so I assumed that 
all the care units followed a safe procedure. My wife did not 
have any type of device to alert anyone she was in trouble. The 
only method would be for her to yell.
    Everyone at the home told me that she had died peacefully 
in the night. In about three or 4 weeks, a detective came to my 
house and spent over two hours asking me what I meant when I 
said my wife was violated. I kept telling him that she was 
violated after death by people at the nursing home taking her 
personal clothes and personal plants brought from our house 
that we put in her room, and her birthday plant her daughter 
had given her.
    About 5 weeks after my wife's demise, I was informed that 
the governor had received information from the Division of 
Aging that a nurse had reported to them about the neglectful 
death of my wife by strangulation.
    The Division of Aging never did tell me and I still wonder 
what their job is since everything is secret there and they 
never give you any answers. I still have no information or 
records that they have there. It is like fighting City Hall and 
a waste of the taxpayers' moneys.
    I have found out that all nursing homes, by law, have a 
book of complaints that is readily available to new clients so 
they can read the record of the home's problems, enabling us to 
make a good decision in using that home. This book was never 
shown to me or told of its presence at the home. So, again, the 
law was there, but not enforced.
    I also believe that the detective came to my house was 
investigating the strangulation death of my wife, wanted to see 
if I knew, and when he was sure I did not know, left and 
reported that I did not know so their municipality would not 
have it on their records.
    I found out the night of my wife's demise she was calling 
out for Steve, and a nurse on that night closed her door since 
it was my wife's outcry was bothering her and possibly some 
other residents. The next morning, the next shift opened the 
door and saw my wife hanging out of the bed, the restraint 
hanging her on the side of the bed. My wife had been calling 
out for Steve, which my nickname is, so I could come help her, 
only I was not there to do so.
    At home I was always there for her, especially during the 
last 7 years of her life. I took care of work, the house and 
her so she would at least be comfortable and safe and secure. I 
trusted her to the care of professional medical people and that 
is one I have with the rest of my life. I only think of how 
long she may have hung there struggling and I was not there for 
her. I am the one that put her in the home and literally signed 
her death warrant.
    I feel deep guilt and pain so very often, and miss the love 
of my life. I feel the pain that my daughter and son feel when 
they talk about her. I also feel that I let her down and denied 
my son and daughter of their mother's love in these later years 
of life.
    Sometime before my wife went to the hospital, she told me 
she was nearly finished her project. I asked what the project 
was and she said it was me. My wife taught me well over the 
years, and instilled in me the cradle of life so, believe it or 
not, I have no animosity toward those that caused her death 
through neglect, and pray that their souls be forgiven and be 
at peace some day.
    This is very difficult for me, and all of my emotions and 
feelings have peaked again, tears are running down my cheek. I 
am sad for my wife and have even a greater sadness for the 
human race, since a lot of us have forgotten how to speak from 
the heart. We have supposedly put procedures in place for the 
betterment of mankind, but only to twist the true solutions 
through our own ego, political gain, and pressure from the 
wealthy interest parties who give moneys to ensure the outcome, 
which benefits them rather than those procedures are put in 
place to protect.
    I think you all should have all the homes on a--and grade 
them according to their resident care levels. You should audit 
them, without letting them know in advance you are coming, just 
like restaurants are audited for health. Insurance rates would 
come down if the level of service went up. You would get lesser 
complaints therefore lesser lawsuits and lesser moneys paid out 
by insurance companies, therefore lower premiums to the care 
takers and medical people.
    This gives the elderly suburb care and cuts insurance 
expense. You can grade these homes just like restaurants, and 
at the same time also keep track of those that work at these 
homes so other homes can check their previous employment record 
prior to hiring them. This would keep those who should not work 
in the homes from going from home to home.
    I have written a lot and I hope that I reached your hearts. 
I will say that I see a lot of violence and tragedy happening 
to our youth and more and more happening to our elderly, along 
with disrespect and lack of dignity for them. The elderly of 
the day were the ones that sacrificed so much in the Second 
World War. The men overseas and the women working on the home 
front.
    If you have a less stable environment for our youth growing 
up, then less of them will be able to take over for the adult 
population, and you have lesser adults having anything to look 
forward in their so-called senior years, except lack of respect 
and dignity, then you have a society that is teeter tottering 
on becoming a tragedy and coming to an end just like so many 
other great nations before. I keep hearing more and more 
tragedies, but I ask but one question, why do you keep doing it 
to yourselves?
    I end here, and I hope I have spoken from the heart and 
represented my wife well with respect, honor and dignity. Thank 
you very much, Chairman.
    [The prepared statement of Mr. Stevich may be found in 
additional material.]
    Senator Bond. Yes. You both touched our hearts. We 
appreciate very much your sharing your stories. I know how 
painful it is, but I hope that you can take some comfort that 
your willingness to come forward and lay out very clearly the 
trauma that your loved ones went through and what it caused you 
will generate some action that will make it less likely that 
someone else's loved one will face what yours did.
    This is a situation that, as I have said, once we started 
investigating this area, we found far too many cases like this. 
And it is a tragedy that has been below the surface. I know 
that we have some people who are dedicated to working on the 
problem. There are not enough people, there are not enough 
resources, there is not enough collaboration, but your 
testimony today will give us really a very strong motivation to 
try to get something done that can make a difference.
    Let me start with Ms. Ballenot. In light of your 
experiences, if someone in Missouri, or across the country, is 
faced with placing a loved one in a nursing home, what advice 
would you give them?
    Ms. Ballenot. Call the Elder Advocate, and if there are any 
good nursing homes, they will know where they are at.
    Senator Bond. Mr. Stevich?
    Mr. Stevich. I agree with the same thing, but a larger 
system has to be put in place across the Nation. And I am 
looking at some place all these homes are like registered and 
they are classified. And then they have a hotline if they--like 
I had nurses tell me things, and I thought they were telling me 
a real thing they were doing. I do not know. I am not a medical 
person. So if I had a hotline to call--like retraining program, 
I say great, they are retraining her. If I would have called 
somebody, there is no such program.
    So there ought to be a hotline out there for the United 
States, there ought to be a place for the centralized computer 
site that all these homes on and all registered people that 
work there you know about, so if they go across the State line 
and work some other place, that home that hires them knows what 
they are getting.
    Senator Bond. Well, I think the Center for Medicaid and 
Medicare Services has an information line. And, of course, I 
have heard some people say it is very helpful, others say that 
it is not.
    Also, one of the things the Bill does is include required 
criminal background checks on employees of nursing facilities. 
We have heard stories of convicted violent criminals who are 
hired in nursing homes and beat a patient to death.
    You were mentioning the elder abuse hotline. This is 
different, I believe, from the Elder Advocate--but the elder 
abuse hotline, for someone who suspects elder abuse, the number 
is 1-800-392-0210, and that is a place to report abuse.
    What impact would you say that these experiences have had 
on your life, Mr. Stevich? Obviously, a great impact.
    Mr. Stevich. I have a lot of pain in the house. I have not 
left my home yet; I am trying to. There is a lot of memories 
there and I still feel--and I do not care--even my doctor and 
other people said, It is not your fault.
    Senator Bond. That is clearly not.
    Mr. Stevich. I am guilty. I put her in that place. I did 
her--my mother, her father, her mother--over 13 years I handled 
it and I did not make a mistake until it came to the one person 
I loved the very most, my wife. And I failed her because I was 
not smart enough to know there was a--I am a very intelligent 
man, and I was not smart enough, just stupid, and the most 
loved one I had died because of it. That lovely lady there.
    And my children--my daughter only wants to tell you that 
things are different. That is all she wants to say, because she 
picks up the phone and tries to call her mother from work, and 
then she puts it back down. It has been over 3 years, and she 
still does it and she calls me up. And she does not want to 
give me her pain because it gives me more pain. So there is 
things that go on. My son is the same way. That is what 
affected me.
    Senator Bond. I would think that their love is something 
that could be very valuable to you.
    Mr. Stevich. It is.
    Senator Bond. We certainly hope that you find comfort in 
that knowing that there was no way that you knew about it, and, 
while this is a tragedy, you certainly--and we would say as 
outsiders, but it cannot be your burden solely. You are doing 
the best thing you can to help try to develop a system where 
this will not happen to someone else in your position.
    Mr. Stevich. I talk to a lot of elderly ladies, and that is 
what I am here for, because they all--men too--90s, 93--and I 
am out there with them. And they are scared.
    Senator Bond. Good, good. Keep working, keeping helping 
them. Ms. Ballenot?
    Ms. Ballenot. Can I kind of elaborate on my previous 
comment also just for a sec?
    You know, laws are all well and good and we have a lot of 
laws on the books, the problem is, that in this area no one is 
enforcing anything. Our prosecutors do not prosecute, our 
police do not arrest, our Division of Aging is near to useless. 
If people cannot follow the rules and the laws that are in 
place now, what is going to change to make new laws effective.
    And as you are going down the road with the Elder Abuse Act 
and other things, we have to want to do it, and we do not want 
to right now. I have sat with the St. Louis County prosecuting 
attorney and he told me there is no problem. And I showed him a 
letter I wrote to his office that he was unaware of.
    So the problem is, is the society, and including all of our 
public functions, does not recognize this as a problem and does 
not--you know, assault is prosecutable. My Dad was assaulted. 
But because my Dad all of sudden lives in this nursing home, he 
is a nonentity, he is a nonhuman being. You do the same thing 
to you or me, and somebody is charged. And it does not take a 
front page story in the Post Dispatch. And that is the dilemma. 
We were shocked to find that no one in the system cared. That 
my Dad did not exist anymore because he was an old guy in a 
nursing home.
    Senator Bond. Well, that is one of the purposes of the 
hearing, is to let people know that this does happen. And it is 
a small step, but you both have taken, I know, very difficult 
steps. And coming forward and telling your story is a very 
powerful way to awaken a lot more people. We will certainly do 
what we can to make sure that the cause that you serve is 
carried on.
    I think on the next panel you will hear that there are some 
things being done. We want to get behind and support those 
efforts, and I have talked to a lot of people the last couple 
of days who are very seriously dedicated to eradicating this 
problem. Those people are out there, we want to provide the 
support for them, we want them to lead by example, we want to 
make sure that there are people in every area of the State who 
are concerned.
    We thank you very much, again, for the great personal 
effort and the great strain that you have been through to be 
able to come forward and provide us with stories of the 
tragedies in your life. We thank you very much, and your pain 
will not go unanswered.
    Ms. Ballenot. Thank you.
    Senator Bond. Thank you.
    Mr. Stevich. Thank you, Senator.
    Senator Bond. Our second panel, I would like to call 
forward U.S. Attorney for the Eastern District of Missouri, Ray 
Gruender, to talk about the activities of the Department of 
Justice in this area. I also call forth Jim Gregory, First 
Assistant Prosecuting Attorney in St. Charles County, who's had 
experience with dealing with this kind of abuse and prosecuting 
it; and JoAnne Polowy, a Missouri representative of the 
Association for the Protection of the Elderly. Retired after a 
long career working in State government on aging issues, she is 
now an advocate for the elderly.
    And we thank you very much.
    Mr. Gruender, if you will begin.

  STATEMENTS OF RAY GRUENDER, U.S. ATTORNEY, FOR THE EASTERN 
    DISTRICT OF MISSOURI; JAMES G. GREGORY, FIRST ASSISTANT 
   PROSECUTING ATTORNEY, ST. CHARLES COUNTY, MO; AND JOANNE 
  POLOWY, MISSOURI REPRESENTATIVE OF THE ASSOCIATION FOR THE 
         PROTECTION OF THE ELDERLY, NEW BLOOMFIELD, MO

    Mr. Gruender. Mr. Chairman and members of the subcommittee, 
thank you for allowing me to participate in this field hearing 
to address the significant issues of elder abuse, neglect and 
exploitation. The elderly, especially nursing home residents, 
are one of the most vulnerable groups of individuals in our 
society because of their age, sometimes reduced mental 
faculties, financial status and medical conditions
    While their experiences in life give them the wisdom to 
share with younger generations, the years take their toll and 
can make them physically and mentally vulnerable. In many 
instances, these individuals are unable to care for themselves 
and are unable to cry out for help when they are not receiving 
the care that they need.
    Often they are the victims of abuse and exploitation, which 
can include neglect of the elderly's most basic needs for 
sustenance and medication. In many cases, this reprehensible 
conduct hastens or even causes death. In these instances, the 
elderly must look to others to protect them and to punish those 
who harm them.
    As United States Attorney in the Eastern District of 
Missouri, I am keenly aware of the ongoing problem of elder 
abuse and neglect. On a regular basis, assistant United States 
Attorneys working in my office received deficiency reports on 
nursing homes within our district.
    From these, we have been informed that, four residents died 
in a nursing home within 48 hours before the fire department 
removed the other residents from the home because of elevated 
temperature. Another nursing home resident died of 
malnutrition, a diabetic nursing home resident died from 
elevated blood sugar levels because no insulin was given to 
that resident for 36 hours.
    Another nursing home resident fell repeatedly and was 
seriously injured when the resident tried to get out of a 
wheelchair to go to the bathroom with no assistance. The falls 
occurred simply because the nursing home lacked adequate 
staffing. Another nursing home resident was found covered with 
ants.
    Another nursing home temporarily employed unqualified 
individuals, some of whom had felony convictions. The nursing 
home did not conduct background checks on these temporary 
employees, and as a result, a resident was physically abused 
and subsequently died.
    To prosecute abuse and neglect cases, U.S. Attorneys must 
demonstrate a Federal nexus, usually, some connection between 
the conduct in question and Federal payments. While U.S. 
Attorneys have successfully brought Federal criminal charges 
against those who abuse or neglect the elderly, and 
subsequently submit false statements or claims to the 
government concerning those incidents, these cases present 
unique challenges.
    To use the criminal fraud statutes, the Federal Government 
must prove that at the time the nursing home officer sought 
payment, he or she knew that the services billed for were not 
being provided. To prove this, the government must often rely 
on circumstantial evidence, usually in the form of long 
standing and repeated pattern of evidence of abuse and neglect. 
That is, we have to show that they knowingly not provided 
services and yet billed for the services anyway.
    Moreover, in these types of cases, the Federal sentencing 
guidelines look to a dollar loss to determine punishment. 
Unless the pattern of not supplying services occurs over a 
relatively long period of time, the loss is not likely to be 
enough money to result in a severe prison sentence under the 
Federal sentencing guidelines. Medicare and Medicaid paid the 
Nation's approximately 17,000 nursing homes an estimated 42 
billion dollars in 2002 to care for its beneficiaries.
    In an attempt to combat elder abuse and neglect, we at the 
Department of Justice use a Federal law, the civil False Claims 
Act, that allows for the imposition of civil penalties when 
false claims are presented to the government for payment 
through Medicare, Medicaid and other Federal programs. The 
False Claims Act does not, however, reach incidents that do not 
involve Federal losses or Federal false statements.
    Under the Civil Rights of Institutionalized Persons Act, 
the Department of Justice has aggressively protected the civil 
rights of individuals that reside in State or locally operated 
governmental institutions. Under this Federal statute, the 
Department of Justice is able to investigate and redress 
patterns and practices of violations of these residents' civil 
rights. The Federal civil statute does not allow the Federal 
Government to examine private facilities. Nor does it allow us 
to address specific individual cases of elder abuse and 
neglect.
    Where we have statutes that address a particular criminal 
offense, such as where the elderly are victims of fraud 
schemes, Federal prosecutors are reasonably successful in 
assisting the elderly and punishing the perpetrators through 
criminal prosecution.
    Recently, in the Eastern District of Missouri, we 
prosecuted an individual who was responsible for a 2.5 million 
dollar investment scheme that caused a number of victims, many 
of whom were well into their retirement years, to lose their 
life savings. The Defendant, a financial adviser, pled guilty 
to one count of mail fraud and one count of embezzling from an 
employee benefit plan. Several of his victims, in their 60s and 
70s and retired for a number of years, told investigators that 
they would be forced to return to work in order to meet their 
basic needs.
    In that instance, Federal laws were in place that allowed 
us to criminally prosecute the individual responsible for the 
fraud scheme. Unfortunately, the perpetrator had squandered the 
money, but the Federal Government obtained, in part due to 
strict sentencing guidelines, including an enhancement for 
victimizing the elderly and vulnerable, a sentence of 87 months 
in prison without parole.
    Elder abuse and neglect is a problem at all levels of our 
Nation. And it crosses all ethnic, racial and economic 
boundaries. We remain committed to working with local and State 
officials on this issue, and to continue to be an important 
participant in the fight against elder abuse and neglect.
    Finally, I would like to thank the Chairman, Senator Bond, 
for allowing me to appear here today. I commend you, and the 
subcommittee, for your work on these issues, and I look forward 
to answering any questions you might have.
    Senator Bond. Thank you very much, Mr. Gruender.
    [The prepared statement of Mr. Gruender may be found in 
additional material.]
    Senator Bond. Now we turn to Mr. Gregory.
    Mr. Gregory. Mr. Chairman and members of the committee, 
first and foremost, I would like to express my sincere 
appreciation to Senator Bond's office for extending an 
invitation to me to speak for this body regarding the 
prosecution of elder abuse that occurred at Claywest House 
Healthcare, LLC, located at 2840 West Clay, St. Charles, MO.
    There are several individuals I feel it incumbent that I 
recognize before discussing the details of this prosecution. 
Individuals whose contributions were instrumental in the 
successful outcome. These individuals and their roles are as 
follows:
    1. Jack Banas, prosecuting attorney of St. Charles County, 
MO, who authorized me to embark upon a prosecutorial endeavor 
that had never been embarked upon in Missouri;
    2. Baue Funeral Home in St. Charles had brought a case of 
suspected abuse to the attention of Dr. Mary E. Case, St. 
Charles County Medical Examiner, whose policy required her 
office to be notified in case of suspicious deaths;
    3. Dr. Mary Case and her assistant, Kathleen Diebold, who 
brought the suspected abuse to the attention of St. Charles 
City Police Department;
    4. Detective Michael Miller of the St. Charles City Police 
Department who worked with me day and night interviewing 
witnesses;
    5. Kathleen Sutton, a paralegal in my office who worked day 
and night assisting Detective Miller and I in obtaining 
documents and arranging witness interviews;
    6. Ann Chambers, a CNA, a certified nurse assistant at 
Claywest House whose suspicions provided the link which led to 
a successful prosecution of the perpetrator of the suspected 
abuse and which ultimately led to the prosecution of the 
principal owners;
    7. Jeanne Rutledge, former program manager of the Missouri 
Division of Aging, whose testimony regarding the required 
reporting of suspected abuse was crucial in the trial of the 
case involving American Healthcare Management, Inc, a Missouri 
corporation, Claywest House Healthcare, LLC and Charles B. 
Kaiser, III, the president of American Healthcare Management.
    And last, but not least, Phil Groenweghe, the assistant 
prosecuting attorney of our office who helped me try the 
principal case.
    This case had its inception on the evening of Wednesday, 
July 28, 1999, when certified nurse assistant, Ann Chambers, 
saw Karl Willard, a resident care assistant, in the hall of 
Claywest House with something on his shirt, and when inquired 
as to the cause of this, Willard responds with a vulgarity 
describing a resident, Marshall Rhodes, II, and tells Chambers 
and Fowler that Marshall Rhodes, II had thrown his medicine on 
him, Willard, and that he, Willard, is going to f----his ass 
up.
    Rhodes was an Alzheimer patient incapable of communicating 
in a comprehensible manner. Between 8:00 p.m. and 8:30 p.m. on 
the evening of Wednesday, July 28, 1999, Chambers and Felisha 
Hunn observed Willard exiting Mr. Rhodes' room and closing the 
door behind him. And when Chambers and Hunn entered Rhodes' 
room, they find him in a defensive position with a scratch on 
his head that was bleeding and Rhodes complaining of being 
tortured.
    Between 11:45 p.m. Monday, August 2 and 12:15 a.m. Tuesday, 
August 3, 1999, Marshall Rhodes is found in his room with open 
lacerations to his left side bottom lip; his sleeping gown 
ripped and bloody. The St. Charles City Fire Department was 
summoned; Mr. Rhodes was transported to the emergency room at 
St. Joseph Health Center in St. Charles where he was treated 
and returned to the Claywest House at approximately 3:00 a.m. 
on Tuesday, August 3, 1999.
    Ann Chambers did not work on Monday, August 2 or Tuesday, 
August 3, but on Wednesday, August 4, when she returned to 
work, she observed Mr. Rhodes with his lip swollen and she and 
Felisha Hunn reported to the Administrator, Betty Via, and the 
Director of Nursing, Cheryl Davis, their suspicions regarding 
Marshall Rhodes' injuries and Karl Willard's actions. Chambers 
and Hunn were directed to provide written statements regarding 
their suspicions.
    At approximately 6:45 a.m. on Thursday, August 5, 1999, 
Marshall Rhodes was found by nurse, Rhonda Brunner, 
unresponsive in his wheelchair, and Brunner summoned the St. 
Charles City Fire Department again to transport Mr. Rhodes to 
the St. Joseph Health Center. Claywest House officials 
attributed Mr. Rhodes' injuries to a fall from his bed, 
although this bed consisted of a mattress that was found--a 
mattress that was on the floor and no furniture in his room on 
which any blood was found.
    On Saturday, August 7, Rhodes died at St. Joseph Health 
Center. His body was sent to the Baue Funeral Home for burial. 
Dr. Mary Case, the St. Charles County Medical Examiner, had 
instituted policies regarding the reporting of certain types of 
death, and Baue Funeral Home reported to Mr. Case's office that 
Marshall Rhodes' death involved a subdural hematoma. And on 
Thursday, August 12, 1999, Kathleen Diebold of Dr. Case's 
office contacted Cheryl Davis, Director of Nursing at Claywest 
requesting Mr. Rhodes' medical records.
    During her conversation with Kathleen Diebold, Cheryl Davis 
never once mentioned anything regarding the suspicions 
expressed by Hunn to her and Via on August 4. On August 16, 
1999, Jeanne Harper of the St. Louis office of the Missouri 
Division of Aging talked to Betty Via, the administrator of 
Claywest House, and Harper told Via that the incident involving 
Marshall Rhodes must be hotlined.
    On August 17 1999, the administrator, Betty Via, emailed 
Charles B. Kaiser, III, the president of American Healthcare 
Management, the manager of Claywest House Healthcare and the 
operator of the facility, that the incident must be hotlined, 
that is, reported to the Division of Aging as suspected abuse.
    Charles Kaiser responded to Betty Via's email, stating he 
personally spoke with Jeanne Rutledge at the Division of Aging 
who told him this was not something that needed to hotlined. 
This became crucial in the trial of the case, because Jeanne 
Rutledge testified unequivocally that Charles Kaiser had not 
conveyed the details of the incident to her.
    On August 23 1999, Betty Via, the administrator of Claywest 
House Healthcare--received a page at the Lake of the Ozarks, 
where she was attending a seminar relating to skilled care 
facilities, and she was advised to return to Charles Kaiser's 
office, where she was then fired, ostensibly for not following 
budgetary policy.
    Dr. Case contacted the St. Charles City Police Department 
and Detective Mike Miller was assigned to investigate the death 
of Marshall Rhodes. As a result of Detective Miller's 
investigation, numerous witnesses were interviewed and 
voluminous records were obtained regarding Mr. Rhodes' death 
and the operation at Claywest House.
    Succinctly stated, it was determined that Claywest House 
was a limited liability company doing business as Claywest 
House, licensed pursuant to the provisions of Chapter 198 of 
the Revised Statutes of Missouri as a skilled nursing facility.
    American Healthcare Management was a Missouri corporation 
organized and existing pursuant to the provisions of Chapter 
351 of the Revised Statutes of Missouri and it had a management 
agreement with Claywest House whereby American Healthcare 
controlled the operation at Claywest House and received a 
substantial management fee. Charles Kaiser was the president of 
American Healthcare, corporate records of which indicate it was 
owned by a Robert D. Wachter and R. William Breece.
    Records obtained from the Missouri Division of Aging 
disclosed that Claywest House had received numerous violations 
as a result of inspections and had been in danger of losing its 
State license as a skilled nursing facility. This facility had 
also been assessed a fine of more than $300,000 for various 
deficiencies, but through the appellate process had been able 
to settle for a figure of approximately $100,000.
    It became very obvious that the management of Claywest 
House felt they could not afford an abuse case in their 
facility with all the previous problems and an active cover up 
was engaged in. Evidence was presented to a grand jury and the 
following indictments were subsequently returned:
    Karl T. Willard was indicted for elder abuse in the first 
degree as prescribed by Section 565.180 and subsequently 
sentenced to 10 years in the Missouri Department of 
Corrections.
    Cheryl Davis, Director of Nursing of Claywest House, was 
indicted for failure to immediately report suspected abuse as 
prescribed by Section 565.188, a class A misdemeanor, but was 
acquitted by a jury.
    Betty Via, the Administrator of Claywest House, was 
indicted for failure to immediately report suspected abuse 
pursuant to a plea agreement, or pro-offer, Via supplied the 
prosecution with certain documented evidence, including copies 
of email from administrators and Charles Kaiser and agreed to 
testify truthfully, whereupon the charge against her was nollie 
prosequied at the conclusion of the trial of American 
Healthcare, Claywest House and Charles B. Kaiser.
    American Healthcare, Claywest House and Charles B. Kaiser, 
III were indicted for failure to immediately report suspected 
abuses prescribed by Section 565.188 and were jointly tried by 
a St. Charles County jury. The jury returned verdicts of guilty 
on each of three defendants and recommended a fine to be 
imposed by the court, and also recommended confinement in the 
St. Charles County Jail for a period of 1 year for Charles B. 
Kaiser, III, the maximum punishment that could be imposed.
    On Thursday, August--February 6, 2003, the Honorable 
Ellsworth Cundiff sentenced the respective defendants as 
follows:
    American Healthcare Management, Inc., a fine of $5,000, the 
maximum punishment that could be permitted under Missouri law.
    Claywest House Healthcare, a Missouri limited liability 
corporation, the fine of 5,000, the maximum punishment 
permitted under Missouri law.
    Charles B. Kaiser, III, president of American Healthcare 
Management, Inc., confinement in the County Jail for a period 
of 1 year, as recommended by the jury and a fine of $1,000, the 
maximum punishment permitted under Missouri law for this 
offense.
    Now all three of these people, American Healthcare, 
Claywest House, Charles B. Kaiser have appealed their sentences 
and appeals are currently pending the Missouri Court of 
Appeals, Eastern District at this time.
    In prosecuting this particular case, and investigating 
other nursing home practices, it is apparent that those 
investing in such facilities utilize various corporate entities 
to limit their individual liability. The corporate structure 
involved in the Claywest House case is rather common in the 
industry. It is obvious that operators take every advantage of 
ever possible loophole in the applicable statute to avoid 
reporting suspected abuse.
    It is apparent that legislation requiring that suspected 
abuse be reported to law enforcement authorities, in addition 
to the State license authority, is needed. Those charged with 
licensing and inspection of facilities are not trained in 
criminal investigations and, therefore, many suspected abuses 
are just not reported. Thank you.
    Senator Bond. Thank you very much, Mr. Gregory. We are--it 
is, I believe, reassuring to several of our witnesses to know 
that, while it takes a long time and it is not easy, their 
prosecutions can be possible.
    [The prepared statement of Mr. Gregory may be found in 
additional material.]
    Senator Bond. Turning to our final witness, Ms. Polowy, 
welcome.
    Ms. Polowy. As you said, I am here as the Missouri 
Representative of the Association for the Protection of the 
Elderly. I am sure you have heard of this, you have been 
involved in this area for quite some time, and quite a few of 
the members from across the country have testified at some of 
these 27 hearings that have been held since 19 whenever on 
asking the Federal Government to do something about conditions 
both in nursing homes and about elder abuse.
    First let me say that I, and others I represent, strongly 
support the passage of your Elder Protection Act. We appreciate 
the fact that Senator Breaux and Senator Bond and quite a few 
others actually have signed on to this. And I understand there 
is a companion Bill in the House of Representatives and one of 
our Representatives from Missouri, Roy Blunt, is a co-sponsor 
of that.
    By and large, as you have before and others have said, the 
public at large seems almost unaware that elder abuse is a 
national crisis. It is a major human rights issue. We talk 
about intervening with countries across this world about human 
rights violations and yet we have populations of people here in 
the United States that are extremely vulnerable, extremely 
frail, and nobody seems to be paying much attention to this at 
all.
    The components of Senate Bill 333--and I am not going to go 
through the various points in that--but I have read and studied 
that Bill and you are certainly headed in the right direction. 
Now there are a few other things that could done, I am sure, 
but I think the fact that there can be a channel of funding to 
help publicize.
    Mr. Gregory mentioned the fact that people are not calling 
local law enforcement. The public, staff in nursing homes, no 
one seems to be aware that when they actually witness cases, 
they call the State hotline number, that 392-0210 number that 
you gave before, but that is almost useless I have come to 
conclude in a case of serious abuse and neglect.
    I worked in State Government for many, many years, was 
involved in the setting up of that reporting system, and really 
had not realized that across the State the State staff would 
essentially ignore, in most cases. Kind of general policy, 
which was, if there was a serious abuse case reported or 
violent case of rape or some such thing, they were to involve 
local law enforcement early on in the process.
    In St. Louis, I think, they probably do this a little bit 
better than in other places. It is kind of like St. Louis is 
fortunate to have an ombudsman office here that keeps a 
register of all the homes in St. Louis and does some good 
things. That is not true across the rest of the State.
    And even in St. Louis I was involved in a case--I did not 
write this up in my testimony because it would get too long--
but where a person actually got out of a facility--a skilled 
nursing facility--fell down a set of stairs, broke her neck. 
There was clear signs to me as a we looked into this case, of 
negligence on the part of the facility. The person was 
hospitalized, died.
    The response to the call to the hotline by the St. Louis 
office was to not even go to that facility or interview anyone 
for 7 days. And when we inquired as to why the lengthy delay 
when the law says that you are supposed to investigate abuse 
and neglect within 24 hours, the law actually says, initiate 
the investigation. And the State workers and system has found a 
loophole there themselves to get out of going out and doing a 
proper investigation.
    And so they can call the administrator of the facility, 
find out their version of what happened, and decide that, oh, 
it was really nothing. In that case, they went out in 7 days, 
by that time records were altered, alarms were fixed, all the 
things that--everything was in place, they called the case 
unsubstantiated. Because they called the case unsubstantiated, 
family members who tried to file suit lost the case in the 
court because the State testified that it was unsubstantiated 
case of abuse.
    There are things like this that I find appalling. I have 
been doing this for about 7 years now since I retired. I knew 
we had a problem because the bureaucracy was increasingly 
becoming deaf to the pleas of families, and I decided that, 
when I retired, this is what I would do. I had no idea that I 
would be overwhelmed with the calls from family members--such 
as Mrs. Ballenot and the other gentleman who testified over and 
over and over.
    Some of them have kept pictures, have kept documented 
records to get the bureaucracy to respond or do anything. This 
Claywest thing had been going on for 5 years with the State 
milling around blaming the law, but really it has to do with 
commitment and lack of involvement of law enforcement in this 
process.
    The other issue that is connected with these cases is the 
losing of nursing staff. The professionals and 
paraprofessionals who are good people providing good care are 
leaving in droves the long-term care field. Much of it is 
because of the avarice of the corporate--for profit 
corporations.
    My husband, for instance, was shocked when he read my 
testimony and I refer to the fact that the nurses who reported 
a case to me--that is probably my cell phone--anyway, it will 
stop in a minute, I guess--but this particular individual who 
owned this nursing home where some nurses actually witnessed a 
person being disciplined by taking them into a whirlpool room, 
hoisting them up, throwing them down into the whirlpool, having 
not attached the thing properly so he fell to the ground and 
bloodied his head and cut his head. He died 2 days later in the 
hospital. This nurse even saw this, called the State hotline 
and no one ever came to the facility to investigate.
    But my husband was appalled over the fact that the man who 
owns or operates--and he is covered by all these layers of 
people that are in this corporate maze--operates 53 facilities 
in the State of Missouri and who knows how many in Arkansas.
    The fact that an individual can have that many facilities 
under their control--there are several corporations in the 
State of Missouri alone that control anywhere from 5,000 to 
6,000 beds. You give them a dollar a day or a 50 cent per raise 
and their pulling in 2 million dollars.
    So, when these corporations cry poor, when they go into 
these facilities by the month, cut the staff, make conditions 
unbearable--these two nurses actually went to this particular--
and I noticed a thing in Mr. Gregory's testimony that said they 
have trouble dealing with it because these owners say they did 
not know that things were bad. Well, I may give him the name of 
this facility because in that particular case these two good 
nurses went to corporate headquarters, spoke to the owner 
before this incident occurred to tell him of the neglect of 
residents, and he said he would look into it.
    In any case, I could go on and on, but I appreciate having 
the opportunity to be here and I am delighted that you are 
taking some effort in this behalf.
    [The prepared statement of Ms. Polowy may be found in 
additional material.]
    Senator Bond. Well, thank you. Thank you very much for your 
testimony. A little discouraging to hear that there is not 
action on the hotline number that we have just given out. We 
will pass along those suggestions to the State agencies. The 
number one for the serious kinds of abuse, I have talked to a 
number of law enforcement officials who strongly urge using the 
911 where it is a matter of serious personal harm or life 
threatening injury to the patient. But it is troubling to know 
that the abuse hotline does not seem to be generating a 
response.
    Let me turn back to Mr. Gruender. Yesterday, Todd Graves, 
the District U.S. Attorney was talking about the difficulty on 
the False Claims Act saying that some of the facilities were 
set up so there was one entity that did the billing and had no 
relationship to the service provider so that it was webbed 
through different corporations so there was a clear break in 
the chain. Is this one of the ways to get around the False 
Claims Act?
    Mr. Gruender. It is one of many, Senator. By having a 
division between the two, you are not allowed or we have a 
difficult time proving a connection or knowledge by those who 
are billing. As you know, the False Claims Act is limited to 
the submission of bills. And by the way, it is a civil issue to 
begin with, so we are not even talking about a criminal 
prosecution.
    It is a recovery of the funds. So without showing that they 
knowingly falsely submitted the bill, knowing that they were 
not providing the service, and since, of course, you have a 
separation between the service providers and the billing 
function, that creates proof problems for us. And that is 
partly the reference that I made during my testimony as well.
    But there are certainly other problems. Some have been 
referred to here today about the difficulty of getting 
testimony available. And I saw one of the ideas of having video 
testimony as being a potential solution.
    Senator Bond. I know that has worked well for child abuse 
video testimony. Well, Mr. Gregory, from the State's 
standpoint, you outlined a successful prosecution. Do you have 
the tools that you need in the prosecutors office, at the State 
level?
    Mr. Gregory. I think Ms. Pol----
    Ms. Polowy. Polowy.
    Mr. Gregory. --Polowy hit on the one thing that--the tools 
are in there on this hotline thing. But I found exactly what 
she was talking about. And I mean I have got a detective here, 
we set up, we had an informant inside this place that called 
and told these people what was going on. You could not get 
anybody down there.
    Now, you have a million dollars and you can have a million 
laws in place, but if you do not have the people implement it, 
it is a waste of time. I do not know how to instill the morals. 
You cannot legislate morals. I do not know how to instill these 
people to take this at heart. And what Ray is talking about is 
exactly right. They use multiple corporations to insulate 
themselves from the knowledge on this stuff, and they hide 
behind it. We had to make--I had to make a deal with this 
person to get some interoffice email, you know, to where I 
could prove these things, that this was an active cover up.
    That is your problem. Now you have got some stuff in your 
legislation, I think, will help if you have forensic training 
and geriatrics.
    The big thing I see, there has got to be mandatory 
reporting of suspected abuse, but it has got to be resolved. So 
there ought to be a simultaneous reporting to the police. And 
if they are not involved and trained investigators are not 
involved, you are wasting your time on this stuff.
    Senator Bond. What are the shortcomings in the State 
prosecution? Please share a little about the ground breaking 
nature of your case.
    Mr. Gregory. Well, this has never been prosecuted before. 
And I think probably what the problem is--she has hit on it--
you can call this hotline--and these people know how to 
manipulate these people who work for the State. I am not saying 
they are dishonest, but you should have seen the type of 
investigation that they had done. For example, they hand the 
statement to Karl Willard and say, tell us what you know. He 
said, do not know nothing, saw nothing. That was his statement.
    You are dealing with people that are not educated and not 
sophisticated and to get a good statement it takes a trained 
police officer, sit down and really question them right, 
because you cannot hand somebody a piece of paper and say, tell 
us what you know, because most people do not want to be 
involved and their scared of the court.
    Senator Bond. Yes, Ms. Polowy?
    Ms. Polowy. Yes. I was involved in the Central Office level 
in this whole area, and it was appalling as you would review 
cases that had been reported into the hotline that were being 
just filed away because the staff did not ask those right 
questions. They had totally botched up the whole thing and so 
there was no way you could prosecute this.
    Now I personally think that CMS right now, tomorrow, could 
issue a directive--and one thing they do do is seem to follow 
those directives that come, if they are clear and pointed. Now, 
usually, it is a bunch of munch, you know, general involved 
stuff----
    Senator Bond. I have had some problems with CMS, yes.
    Ms. Polowy. --but CMS can issue a directive that tells 
them, just what he said, at the time that they receive a report 
of a death or a serious injury--or harm to a resident, they 
must simultaneously report it to the local law enforcement--to 
get a joint investigation.
    Then some of these funds can be used that might be 
generated from your Act to do this cross training that is 
needed. Springfield in Green County, they have an absolutely 
wonderful prototype of a police department that has set up a 
special unit and that works very closely on the home and 
community side with Division of Aging personnel. But they are 
never called by the regulatory branch because they do not see 
it, within their tunnel vision, as their responsibility.
    So that body that controls the purse strings for those 
State personnel salaries does have some leverage and if they 
can State this in some clear way that this is a mandatory 
thing--I have yet to be able to get State officials to make--if 
the Director of the Department of Health would make that 
commitment, if the governor of the State of Missouri would make 
that commitment and say it, they would probably do it. But if 
it is written as a little policy in the manual, they are not 
going to pay any attention.
    Senator Bond. Yes, issuing an order is different from 
following up. But, let me go back to this--we are talking about 
the legislative branch here, and we will start with Mr. 
Gruender. What kind of structure is needed? Would you want to 
see a specific Federal statute on abuse of the elderly? You 
have had some experience looking at this, what is it that we 
need? Is there a Federal criminal statute specifically on this, 
would that work or is that a problem?
    Mr. Gruender. Senator, I know the Department has not taken 
an official position yet and stands ready, I know, to work with 
you. But let me just point out, in the area of financial abuse 
of the elderly, or financial abuse of anyone, that has 
traditional been a Federal law enforcement rule. And I think we 
have been quite successful there. We have mail fraud and wire 
fraud statutes that are right on point and allow us to pursue 
those cases.
    There is no Federal criminal elder abuse and neglect 
statute. So that makes it difficult to prosecute criminally on 
a Federal level. Now, traditionally, there are lots of State 
laws and traditionally those go to the States, but it makes it 
difficult for us to do that Federally.
    On rare occasions, there have been some attempts by Federal 
prosecutors to sort of fit a square peg into a round hole by 
using a pattern of evidence to show that over a period of time 
they must have known that they were not providing the service 
and yet mailing or wiring in requests for payments, that sort 
of thing. But that really does not help us get to isolated 
incidents, and those are fairly rare.
    Senator Bond. Let me phrase it this way, were there to be a 
Federal law, one you think that the U.S. Attorneys office could 
handle this responsibility, how would it work with State 
prosecuting attorneys? What items would there have to be in it 
or what checks and safeguards would you want to see in it, if 
there were to be one? Not advocating one, but----
    Mr. Gruender. Sure, Senator--I understand.
    Senator Bond. What would be the outline?
    Mr. Gruender. Well, resources are always an issue for us 
and it does help to have additional resources available to us. 
But be that as it may, we, in our office, assigned two AUSAs to 
review these deficiency reports and to attempt to see if we are 
developing those sorts of patterns that we might be able to 
shoehorn into the current Federal statutes as well, and/or use 
the civil statutes that are available to us.
    There are frequently areas where there is overlap between 
State and Federal prosecution. For instance, gun crime. And we 
have had a great deal of success here in eastern Missouri 
prosecution gun crimes by literally having a meeting every week 
with the Circuit Attorneys office and going through and 
determining who best should prosecute each of these cases with 
criteria such as, you know, who has the best law for the facts 
of that particular case, and who would get the most severe 
punishment.
    So, certainly, those sorts of things happen frequently and 
the coordination can be accomplished.
    Senator Bond. Mr. Gregory, you are dealing with State laws, 
tell me, why could not Claywest be prosecuted for abuse?
    Mr. Gregory. Looking back, I think now I could have charged 
them with actual abuse, which is a felony under Missouri law. 
At that particular time, there had been a series of cases out 
of the Missouri Court of Appeals, Eastern District and then 
some in the Western District that said just exactly like the 
lady said where they had reversed convictions against 
administrators on the basis that you had not proved knowledge. 
I mean--so I took an unusual route that I felt that I could 
prove is not reporting. I felt like I had a good case on that.
    Now, the abuse, it was a real difficult problem because the 
two ladies who saw this were not real articulate and they would 
get real confused because, quite frankly, the administrator and 
them were--it appeared to me--were trying to cover it up.
    I wanted to go higher, I wanted to get the big boys, so I 
made a deal with the administrator. You almost have to do that 
on these things and flip--well, what we call flipping somebody 
to get them to testify.
    Senator Bond. Well, that happens up and down the criminal 
prosecution ladder. That is you take the little fish and you 
give them a chance to either be swallowed by the shark or turn 
on the shark.
    Mr. Gregory. And what made it so difficult is this layer of 
corporations. We went to Jeff City; we had gone through 
secretary of State's office and you know you got a limited 
liability corporation, then you have got a management company 
and then you have got the actual licensee.
    Well, this management agreement drained almost all of the 
profits from Claywest, the house itself. We found--when Mike 
Miller goes out there, ghost employees. They may have so many 
people on the staff, but they just were not there. So I do not 
know whether we do not we have the facilities, whether or not 
they are billing this to Medicare and Medicaid.
    Senator Bond. Yes. Well, that sounds like that is a 
regulatory question as well, and this is, you know, certainly 
an area to be pursued. We are supposed to vacate it here fairly 
shortly but one of the things they talked about yesterday or 
several places suggested was we also need to put more emphasis 
on finding out and stopping abuse before it happens.
    I think we clearly need to have some more criminal 
prosecution tools where it occurs because it appears that it is 
very difficult to nail anybody. But the attorneys who are 
prosecuting these cases or pursuing these cases said there 
should be some means of alternative dispute resolution where if 
you had a problem, if you had suspected something like Mr. 
Stevich had, that you could go to a panel with some authority 
to say this is what appears to be happening to my loved one. We 
need somebody to step in. Part of it is the ombudsman role. Ms. 
Polowy, what----
    Ms. Polowy. Well, three or 4 years ago, we actually found a 
Senator or Representative who agreed with you, and we got put 
in--but it was only supposed to be pilot--an informal dispute 
resolution process for consumers, for family members and 
residents.
    It was an absolute farce. The way the bureaucracy handled 
that with no regard for having it work and the report they gave 
back to the legislature was devastating. And there were people 
who I am sure you have heard of some of the names of the people 
who worked very hard. We tried to get them to cooperate with 
us, let advocates help develop your policy. None of that 
happened.
    Since I spend a good deal of my time out of the State 
nowadays taking care of an aging husband, I do not have time to 
be hassling them as much as I used to, but during that time I 
was. And I was there, right in Jefferson City, 10 minutes away, 
and they could have asked me in anytime. And, you know, we are 
not included.
    I hear from industry people, committees that are meeting, 
things that are going on, consumers are not involved, but they 
have no interest in this at all. And the bureaucracy--part of 
it is we do not have any power. We are not giving big money to 
them, the top level bureaucrats are totally under the control 
of the industry as far as I can see.
    Mr. Gregory. Could I just say----
    Senator Bond. Let me ask----
    Ms. Polowy. OK. So that disappeared from Missouri law.
    Senator Bond. This is a rather depressing picture. We have 
this Elder Justice Act. What do we need? Do we need to add 
things to it? Will this make a difference? Is this not enough? 
And let us just go down the line again.
    Mr. Gruender? Anything you could suggest that we should 
consider?
    Mr. Gruender. Nothing specific, Senator, except the 
Department, I know, is willing to work with your staff on 
anything they can to improve it and to work with you on it.
    Senator Bond. Mr. Gregory?
    Mr. Gregory. My problem is, I may have the experience and 
the know how and the ability and, you know, the guts to go 
after some of this stuff. These are not what I call sexy cases. 
It is not like when you have some elderly person dies or they 
strangled one of these things, they do not call out the major 
case squad and the major case squad people get out here and 
hold press conferences. This stuff is hushed up.
    I think you need something to give Federal jurisdiction, 
where they can go anywhere, because, quite frankly--and you 
have been raised in the country, I was raised in Montgomery 
County, you were raised Audrain County--
    Senator Bond. Yes, neighbors just up the road.
    Mr. Gregory. --and you do not get experienced prosecutors 
in those places. Sometimes you do not have really qualified 
investigators and stuff. If you have a Federal investigating 
team that can go in and look at this stuff and take 
jurisdiction in some of these places, or even assist, I think 
that is a big progress. Those cases are out there. I know 
dozens of them, but I do not have jurisdiction on some of them, 
but they are prosecutorial nightmares----
    Senator Bond. Raw meat, yes.
    Mr. Gregory. --but they can be done.
    Senator Bond. Ms. Polowy?
    Ms. Polowy. Well, I am interested that you are interested 
in prevention. That is a field of my interest. On the 
preventative side, you have got to do something in the nursing 
home world about staffing. And----
    Senator Bond. Yes, as you know, there are provisions in 
there--some incentives for staffing--but requiring the money 
to----
    Ms. Polowy. I would like to have an opportunity to take a 
whole area unto itself to explain to somebody how they could do 
it and how they could force accountability. Right now, the 
State survey personnel do not have the information or the tools 
available to them to properly cause accountability. Medicare 
pours in the is money based on a formula and nobody tells the 
State personnel what that formula is and whether they should be 
checking it. It is ridiculous.
    I will try to explain it all to your staff.
    I think I tried once. And it takes three times to hear it.
    Senator Bond. Well, if she can understand it in two or 
three times it may take me ten----
    Ms. Polowy. OK.
    Senator Bond. --but once she understands it, then she can 
lead me through it.
    Ms. Polowy. Then maybe you can help.
    Senator Bond. But this is an area we have been concerned 
about and there is obviously we have not gotten our hands on 
the whole problem.
    Ms. Polowy. On the community side of respite care until 
people are giving these family care givers more support and 
there can be some kind of real initiative in that direction, a 
lot of this home abuse is coming--just like in child abuse--I 
mean, I even grew up in the period when the child abuse world 
was just beginning to grow and the first articles appeared in 
mothers' magazines and all of that about if you are too tired, 
you are going to start beating on your kids and things like 
this. Well, the exact same thing is true here.
    Senator Bond. Adult day care is----
    Ms. Polowy. And it is just not getting adult day care that 
would be the respite that they could use----
    Senator Bond. But you are talking about the respite, yes, 
that----
    Ms. Polowy. --but I think there is also informal care 
givers who can come in and people who can provide respite, but 
most families do not have the wherewithal to deal with it, no 
agencies handle that, it is just a nonexistent difficult thing 
for people to deal with. So, on the community side, I see 
respite care as the big preventative measure.
    Senator Bond. This has been a very informative, but 
troubling session. This issue is very personal and those of you 
who talked about family members, our hearts go out to you. The 
tragedies that the families have gone through is really 
unspeakable.
    And yet we know we are seeing more and more that it does 
affect every community and the growing number of seniors, we 
are going to see more of it. We have to recognize and address 
this system and I look forward to following up, getting more 
ideas from all and any of you on how we have a multifaceted 
solution, public health, social services and making sure law 
enforcement works. And it appears that the regulatory side is 
adequately staffed is important.
    And providing the respite care, providing taking some of 
the pressure off of the family that would like to keep the 
loved one who is suffering some disabilities at home, but 
cannot stay with them all the time.
    I am hoping that the Elder Justice Act will get the Federal 
Government involved. We are looking for research and centers of 
excellence really to go through all these things and to work 
out all the details. Granted, we do not have all the answers 
here.
    I thank you all for your time, and I very much appreciate 
it. And we do look forward to hearing from each of you. My 
sincere thanks to those of you who have come, especially those 
who talked about their family members, and we would welcome 
hearing from you.
    With that, the hearing is adjourned.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                 Prepared Statement of Martha Ballenot
    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss with you the important issue of elder care in the 
United States.
    Our father, Burton Reese, served his country in two wars: World War 
II, overseas in China, and the Korean Conflict. He is now fighting the 
third war of his life; the one we fondly call ``nursing home hell.''
    After suffering a debilitating stroke in 1998 our Dad lived in 2 
assisted living homes and 4 nursing homes. He was hospitalized 12 
times. We kept thinking the next home would be better. For the past 4 
years he has been in a residential care center with no 
hospitalizations.
    For a while he lived in a locked Alzheimer's wing, located in the 
basement of a St. Louis County nursing home. At Christmas, the 
residents of this wing were served leftovers from the meals of the rest 
of the nursing home residents, as their Christmas meal.
    The method of care there was to shoot their residents full of 
behavior control medication. This made the residents very manageable. 
One month we spent $3,000 on such medication. One Saturday, while the 
two attendants on duty were talking at the nurses' station, a resident 
emptied his colostomy bag down the hallway. I told the workers about it 
and could not get any of them to clean it up. Because I had my 4-year-
old son with me, I had to choose between our Dad and getting my son out 
of there. I put our Dad in his room; picked up my son, left and went to 
the main office to complain.
    Our Dad eventually was hospitalized for malnutrition, dehydration, 
a blood clot in his leg and external bruising. A doctor who attended 
him said the bruising was the kind of injury often associated with 
physical abuse. When confronted with these diagnoses, the management at 
Clayton House decided that he was the problem and they evicted him from 
the home.
    The next move was to another local nursing home. We would visit him 
every day, sometimes twice a day. Our Dad was very edgy there. He 
talked about being tried for murder and fighting in a war. We thought 
he was simply deteriorating. We know now that it was his way of telling 
us he was being hurt. He especially hated the head nurse. He said she 
was a Nazi. By calling the head nurse names, he was trying to point out 
to us who was hurting him. He was constantly agitated. The doctors told 
us this was normal and we should keep trying different behavior control 
medications.
    We believed the doctors. It turns out, yes; this was normal 
behavior for someone who was being brutalized constantly by people we 
trusted to care for him.
    One day an employee reported to management that he had witnessed 
several employees bribing another brain-damaged resident to beat our 
Dad (as they stood by watching in amusement.)
    He reported that they had also dragged him on his knees, beat him 
with a belt on his bare legs as they were changing his clothing, hit 
him in the head with a book, locked him in the bathroom and possibly, 
over-medicated him, since one of the abusers was the Med Tech who 
dispensed medications.
    This nursing home took prompt action by calling the police and 
firing the accused employees and their immediate supervisor. It took a 
front-page story in the St. Louis Post Dispatch to convince the St. 
Louis County Prosecutor to press charges.
    These assaults on our Dad were labeled ``third degree abuse.'' This 
was hardly a career-making case, so Assistant Prosecutor assigned to 
this case didn't feel it deserved his attention and, in fact, pressed 
on only after a letter-writing campaign was mounted by my family. One 
of the abusers plea bargained for probation and the other had the 
charges dropped because the only witness, our Dad, was too demented to 
testify. The original accuser could no longer be found; he defied a 
subpoena and did not appear in court. No warrant was put out for his 
arrest; there was no consequence for his failure to show up in court.
    The convicted abuser did not agree, as part of his plea agreement, 
to testify against the other person charged in the case. When asked 
about this, the assistant prosecutor said to me, with a shrug of his 
shoulder, ``What good would that have done?''
    The Med Tech, against whom the charges were dropped, was at work on 
another area nursing home within two weeks after being fired and 
charged with abuse.
    The Missouri Division of Aging decided that our Dad was a danger to 
the other residents and told Oak Knoll to get rid of him or be in 
danger of losing their license.
    It does not end here: our lawyer, hired under the guise of being an 
activist, who settled Daddy's case against Oak Knoll as soon as my 
sister, who holds our Dad's power-of-attorney, left town. He settled 
despite direct instructions from her, as well as an agreement with Oak 
Knoll and their insurance company to the terms we had requested 
including the implementation of a pilot project using surveillance 
cameras to monitor care.
    Currently we have to worry and wonder when the Missouri Division of 
Aging will intrude on our Dad's life again, always under the pretense 
of being concerned for his safety. Our Dad has lived for 4 years in a 
group home that specializes in the care of Alzheimer's and dementia 
victims.
    The State does not have a classification for this type of home so 
they try to impose archaic rules, rules that do not work even in a 
traditional nursing home setting, upon this home. Even though our Dad 
has a condition where he will continue to deteriorate, until he dies, 
the Division of Aging insists he be able to find a safe pathway out of 
the house and that he be able do that by walking. In this setting his 
caretakers work at a ratio of 3 caretakers to 8 residents. In the 
nursing home there was 1 caretaker to 20 residents. Where do you think 
he is safer?
    The Division of Aging, when questioned about these actions, blames 
the State legislators. They claim to be powerless.
    Since 1998 we have tried to get help to stop the abuse from the 
Missouri Attorney General's office. He couldn't help because our Dad 
was private pay and not on Medicaid. Our State Senator, filed our 
letter because he thought the matter had been taken care of. He never 
bothered to ask us or respond in any way. The Missouri Department of 
Health took no action against the supervisor who didn't know abuse was 
happening on her shift. The list goes on and on.
    When Daddy first moved into his present facility in Creve Coeur, an 
eight-bedroom residential facility, the other resident there was so 
demented that the only word he had been able to utter was ``coffee,'' 
and so the caregivers at his nursing home gave it to him, cup after 
cup. When he arrived at the new facility he was so dehydrated from 
drinking coffee that he was blue. He died several weeks later.
    At another home, I could not allow my son to sit it a chair while 
he visited his grandfather because it was so badly stained with urine. 
At the second nursing home I watched as employees unplugged the 
electric keyboard of a non-mobile patient because they didn't care for 
the noise. These are not isolated incidents but daily occurrences in 
nursing homes across the country.
    What is the answer? Nursing home monitors for use by patients and 
their families and the Elder Protection Act are pieces of the puzzle, 
but not the entire picture. Personal responsibility is hard to 
legislate but not so hard to demand. Demand that State agencies serve 
the people, not the special interests; demand that all nursing home 
deaths are investigated; demand that people do their jobs and that the 
elderly are recognized as valuable citizens, not disposable nuisances.
    Ladies and Gentlemen, this will be us: you and me, before too long. 
Is this how you want to live the final years of your life?
    Thank you for your time.
                Prepared Statement of Francis M. Stevich
    Mr. Chairman, and Members of the Committee, I appreciate the 
opportunity to speak to you on behalf of my dearly departed and most 
precious wife of 40 years who met her demise on Mother's Day, 2000. She 
was a very delicate, lovely lady with a very great warmth and love for 
all living things. She had many diseases that took their toll on her 
for over 20 years and her last 7 years had been very hard on her with 
extreme pain and the loss of her ability to get around. She had a very 
difficult operation to enhance the blood flow in her leg since she was 
in the advanced stages of arterial sclerosis. She got gangrene in the 
little toe of that leg and it did finally heal but without the toe 
nail. She remained in extreme pain since the nerves had been turned on 
in her leg and could not be turned off. We spent many days with many 
doctors trying to relieve the pain with no success. In April of 2000, 
she became very ill and was put in the hospital. After 10 days, she had 
become stable enough to leave the hospital but was still in medical 
need of a skilled nursing home for further recovery.
    My son found the Florissant Skilled Nursing Home for her which was 
on the way to my work so I could drop in every day since I literally 
passed by the home on the way to work. She was in the Nursing home for 
20 days and 5 of those days she was taken back to the hospital. As I 
look back on the care she received, I realize that she was not fed very 
well nor did they even give her water. I brought in a child's ``sippy 
cup'' at the direction of our 4-year-old granddaughter to help her be 
able to drink. It worked extremely well when I gave her water. I found 
at times that the cup was not within her reach and the lid was off when 
I would visit. When I talked to the nurses, they would tell me that she 
was on a 2-hour retraining program for input and output of body fluids, 
etc. At times, when I would visit her during eating time, I found her 
off to the side in a special feeding room with others and only one 
person feeding them all. I tasted her food and some of it was cold. I 
would ask why and they would say she had eaten all she wanted to. My 
wife went from 90 some pounds down to 74 pounds during her few days in 
that place.
    On Mother's Day, 2000, I received a call from the Nursing home that 
my wife had passed away peacefully during the night. I went to see her 
immediately after I called our children with the news and they showed 
up shortly after I arrived. We got her out of the home that afternoon 
and my son picked up her personal items the next day. We found quite a 
few items missing and complained about it to the home and the Division 
of Aging. The home literally did nothing and one nurse's assistant 
yelled at me saying my son had taken the items. The Division of Aging 
did nothing as usual. I say that because they were informed of the 
illegal restraint that the home had put on my wife and did nothing 
about it to ensure safety. I assumed that since it was a professionally 
staffed home that all medical and safety procedures were followed and 
since the Division of Aging was notified that they would ensure safe 
use or removal of the restraint. When she was in the hospital, she had 
a restraint on her and all went well so I assumed that all care units 
followed a safe procedure. My wife did not have any type of device to 
alert anyone she was in trouble. Her only method would be to yell. 
Everyone at the home told us she died peacefully in the night. In about 
3 or 4 weeks, a detective came to my house and spent over two hours 
asking about what I meant when I said my wife was violated. I kept 
telling him that she was violated after death by people at the nursing 
home taking her personal good clothes and the personal plants brought 
from our house that we put in her room and the birthday plant her 
daughter gave her for her birthday.
    About 5 weeks after my wife's demise, I was informed that the 
Governor had received information from the Division of Aging that a 
nurse had reported to them about the neglectful death of my wife by 
strangulation. The Division of Aging never did tell me and I still 
wonder what their job is since everything is secret there and they 
never give you any answers. I still have no information on the records 
they have there. It is like fighting city hall and a waste of 
taxpayer's money. I also found out that all Nursing homes by law have a 
book of complaints that is to be readily available to new clients so 
they can read the record of the home's problems enabling us to make a 
good decision in using that home. This book was never shown to me or 
told to me of its presence at the home so again the law may be there 
but not enforced. I also believe that the detective that came to my 
house was investigating the strangulation death of my wife, wanted to 
see if I knew and when he was sure I did not know, left and reported 
that I did not know so their municipality did not have it on their 
records and looked better. I found out the night of my wife's demise, 
she was calling out for ``Steve'' and the nurse on that night closed 
her door since my wife's outcrys were bothering her and possibly some 
other residents. The next morning, the next shift opened the door and 
saw my wife hanging out of bed with the restraint hanging her on the 
side of the bed. My wife had been calling out for ``Steve'' which is my 
nickname so I could help her only I was not there to do so. At home, I 
was always there for her especially during the last 7 years of her 
life. I took care of work, the house and her so she was at least 
comfortable and safe and secure.
    I trusted her care to the medical professionals and that is one 
that I have to live with. I often think of how long she may have hung 
there struggling and I was not there for her. I am the one that put her 
in that home and literally signed her death warrant. I feel deep guilt 
and pain so very often and miss the love of my life. I feel the pain my 
daughter and son feel when we talk about her. I will always feel that I 
let her down and denied my son and daughter of their mother's love in 
these later years in life. Sometime before my wife went to the 
hospital, she told me that she was nearly finished with her project. I 
asked her what the project was and she said, ``It is you''. My wife 
taught me well over the years and instilled in me the ``Cradle of 
Life'' so believe it or not, I hold no animosity towards those that 
caused her death through neglect and pray that their souls will be 
forgiven and be at peace someday. This is very difficult for me and all 
of my emotions and feelings have peaked again and tears are running 
down my cheek. I am sad for my wife and I have even a greater sadness 
for the human race since a lot of us have forgotten how to speak from 
the heart. We have supposedly put procedures in place for the 
betterment of mankind but only to twist the true solutions through our 
own ego, political gain and pressure from the wealthy interested 
parties who give monies to ensure the outcome which benefits them 
rather than those the procedures are to protect. I think you should 
have all the homes on file, grade them according by their resident care 
levels.
    You should audit them without letting them know in advance you are 
coming just like restaurants are audited for health. Insurance rates 
would go down if the level of service went up. You would get lesser 
complaints therefore lesser law suits and lesser monies paid out by 
insurance companies therefore lowering premiums to the care-takers and 
medical people. This gives the elderly superb care and cuts insurance 
expense. You can grade these home just like restaurants and at the same 
time also keep track of those that work at these homes so other homes 
can check their previous employment record prior to hiring. This would 
keep those who should not work in the homes from going from home to 
home. I have written a lot and hope that I have reached your hearts. I 
will say that I see a lot of violence and tragedy happening to our 
youth and more and more of the same happening to our elderly along with 
disrespect and lack of dignity for them. The elderly of today were the 
ones that sacrificed so much in the 2nd world war. The men overseas and 
the women working on the home front. If you have a less stable 
environment for our youth growing up, then less of them will be able to 
take over for the adult population and less adults having anything to 
look forward to in their so called senior days except lack of respect 
and dignity, then you have a society that is teeter-tottering on 
becoming a tragedy and coming to an end just like all of the great 
nations before. I keep hearing more and more tragedies and I ask you 
but one question, ``Why do you keep doing it to yourselves?'' I end 
here and I hope I have spoken from the heart and represented my wife 
well and with respect, honor and dignity.
               Prepared Statement of Raymond W. Gruender
    Mr. Chairman and Members of the Subcommittee: Thank you for 
allowing me to participate in this field hearing to address the 
significant issues of elder abuse, neglect and exploitation.
    The elderly, especially nursing home residents, are one of the most 
vulnerable groups of individuals in our society because of their age, 
sometimes reduced mental faculties, financial status and medical 
conditions. While their experiences in life give them wisdom to share 
with younger generations, the years take their toll and can make them 
physically and mentally vulnerable. In many instances, these 
individuals are unable to care for themselves and are unable to cry out 
for help when they are not receiving the care that they need. Often, 
they are the victims of abuse and exploitation which can include 
neglect of the elderly's most basic need for sustenance and medication. 
In many cases, this reprehensible conduct hastens or even causes death. 
In these instances, the elderly must look to others to protect them and 
to punish those who harm them.
    As United States Attorney in the Eastern District of Missouri, I am 
keenly aware of the ongoing problem of elder abuse and neglect. On a 
regular basis, Assistant United States Attorneys working in my office 
receive deficiency reports on nursing homes within the district.
    From these, we have been informed that:
    Four residents died in a nursing home within 48 hours before the 
fire department removed the other residents from the home because of 
the elevated temperature.
    Another nursing home resident died of malnutrition.
    A diabetic nursing home resident died from elevated blood sugar 
levels because no insulin was given to that resident for 36 hours.
    Another nursing home resident fell repeatedly and was seriously 
injured when the resident tried to get out of a wheelchair to go the 
bathroom with no assistance. The falls occurred simply because the 
nursing home lacked adequate staffing.
    Another nursing home temporarily employed unqualified individuals, 
some of whom had felony convictions. The nursing home did not conduct 
background checks on these temporary employees and, as a result, a 
resident was physically abused and subsequently died.
    To prosecute abuse and neglect cases, U.S. Attorneys must 
demonstrate a federal nexus--usually, some connection between the 
conduct in question and federal payments. While U.S. Attorneys have 
successfully brought federal criminal charges against those who abuse 
or neglect the elderly and subsequently submit false statements or 
claims to the government concerning those incidents, these cases 
present unique challenges. To use the criminal fraud statutes, the 
federal government must prove that, at the time the nursing home 
operator sought payment, he or she knew that the services billed for 
were not being provided. To prove this, the government often must rely 
on circumstantial evidence--usually in the form of a longstanding and 
repeated pattern of evidence of abuse and neglect i.e., knowingly not 
providing services and billing for them anyway).
    Moreover, in these types of cases, the federal sentencing 
guidelines look to a dollar loss to determine punishment. Unless the 
pattern of not supplying services occurs over a long period of time, 
the ``loss'' is not likely to be enough money to result in a severe 
prison sentence.
    Medicare and Medicaid paid the nation's approximately 17,000 
nursing homes an estimated $42 billion in 2002 to care for its 
beneficiaries (GAO Report--July 17, 2003). In an attempt to combat 
elder abuse and neglect, we at the Department of Justice use a federal 
law, the Civil False Claims Act, that allows for the imposition of 
civil penalties when false claims are presented to the government for 
payment through the Medicare, Medicaid and other federal programs. The 
False Claims Act does not, however, reach incidents that do not involve 
federal losses or federal false statements.
    Under the Civil Rights of Institutionalized Persons Act, the 
Department of Justice has aggressively protected the civil rights of 
individuals that reside in state or locally operated governmental 
institutions. Under this federal statute, the Department of Justice is 
able to investigate and redress patterns and practices of violations of 
these residents' federal civil rights. This federal civil statute does 
not allow the federal government to examine private facilities. Nor 
does it allow us to address specific individual cases of elder abuse 
and neglect.
    Where we have statutes that address a particular criminal offense, 
such as where the elderly are victims of fraud schemes, federal 
prosecutors are reasonably successful in assisting the elderly and 
punishing the perpetrators through criminal prosecutions.
    Recently, in the Eastern District of Missouri, we prosecuted an 
individual who was responsible for a $2.5 million investment scheme 
that caused a number of victims, many of whom were well into their 
retirement years, to lose their life savings. The defendant, a 
financial advisor, pled guilty to one count of mail fraud and one count 
of embezzling from an employee benefit plan. Several of his victims, in 
their 60s and 70s and retired for a number of years, told investigators 
that they would be forced to return to work in order to meet their 
basic needs. In that instance, federal laws were in place that allowed 
us to criminally prosecute the individual responsible for the fraud 
scheme. The perpetrator had squandered the money, but the federal 
government obtained, in part due to strict sentencing guidelines, 
including an enhancement for victimizing the elderly and vulnerable, a 
sentence of 87 months in federal prison without parole.
    Elder abuse and neglect is a problem at all levels of our nation, 
and it crosses all ethnic, racial and economic boundaries. We remain 
committed to working with local and state officials on this issue and 
to continue to be an important participant in the fight against elder 
abuse and neglect.
    Finally, I would like to thank the Chairman, Senator Bond, for 
allowing me to appear here today. I commend you and the Subcommittee 
for your work on these issues. I look forward to answering any 
questions you may have.
                 Prepared Statement of James G. Gregory
    Mr. Chairman and Members of the Committee, first and foremost, I 
would like to express my appreciation to Senator Bond's office for 
extending an invitation to me to speak before this body regarding the 
prosecution of elder abuse that occurred at Claywest House Healthcare 
LLC located at 2840 West Clay, St. Charles, Missouri 63301.
    There are several individuals I feel it incumbent that I recognize 
before discussing the details of this prosecution, individuals whose 
contributions were instrumental in the successful outcome. These 
individuals and their roles are as follows:
    1. Jack Banas, Prosecuting Attorney of St. Charles County, 
Missouri, who authorized me to embark upon a prosecutorial endeavor 
that had never been embarked upon in Missouri;
    2. Baue Funeral Home who brought a case of suspected abuse to the 
attention of Dr. Mary E. Case, St. Charles County Medical Examiner 
whose policies required her office to be notified in case of suspicious 
deaths;
    3. Dr. Mary E. Case and her assistant, Kathleen Diebold, who 
brought the suspected abuse to the attention of the St. Charles City 
Police Department;
    4. Detective Michael Miller of the St. Charles City Police 
Department who worked with me day and night interviewing witnesses;
    5. Kathleen Sutton, a paralegal in my office, who worked day and 
night assisting Detective Miller and I in obtaining documents and 
arranging witness interviews;
    6. Ann Chambers, CNA, a certified nurse assistant at Claywest 
House, whose suspicions provided the link which lead to a successful 
prosecution of the perpetrator of the suspected abuse and which 
ultimately lead to the prosecution of the principals;
    7. Jeanne Rutledge, former Program Manager, Missouri Division of 
Aging, whose testimony regarding the required reporting of suspected 
abuse was crucial in the trial of the cases involving American 
Healthcare Management, Inc., a Missouri corporation, Claywest House 
Healthcare, LLC and Charles B. Kaiser III, the President of American 
Healthcare Management, Inc.; and
    8. Last, but not least, Phil Groenweghe, Assistant Prosecuting 
Attorney of our office who helped me try the principal case.
    This case had its inception on the evening of Wednesday, July 28, 
1999, when CNA Ann Chambers saw Karl Willard, a RCA, resident care 
assistant in the hall of Claywest House, with something on his shirt, 
and when inquired as to the cause of this, Willard responds with a 
vulgarity describing a resident, Marshall Rhodes II, and tells Chambers 
and Fowler that Marshall Rhodes II had thrown his medicine on him, 
Willard, and that he, Willard, is going to ``f------his ass up.'' 
Rhodes was an Alzheimer patient incapable of communicating in a 
comprehensible manner.
    Between 8:00 P.M. and 8:30 P.M. on the evening of Wednesday, July 
28, 1999, Chambers and Felisha Hunn observe Willard exiting Mr. Rhodes' 
room and closing the door behind him; and when Chambers and Hunn enter 
Rhodes' room they find him in a defensive position with a scratch on 
his head that was bleeding, and Rhodes complaining of being tortured.
    Between 11:45 P.M. Monday, August 2, and 12:15 A.M. Tuesday, August 
3, 1999, Marshall Rhodes is found in his room with open lacerations to 
his left side bottom lip and his sleeping gown ripped and bloody. The 
St. Charles City Fire Department was summoned, and Mr. Rhodes was 
transported to the emergency room at St. Joseph Health Center in St. 
Charles where he was treated and returned to Claywest House at 
approximately 3:00 A.M. on Tuesday, August 3, 1999.
    Ann Chambers did not work on Monday, August 2, or Tuesday, August 
3, 1999, but on Wednesday, August 4, 1999, when she returned to work 
she observed Mr. Rhodes with his lip swollen, and she and Felisha Hunn 
reported to the Administrator, Betty Via, and the Director of Nursing, 
Cheryl Davis, their suspicions regarding Marshall Rhodes' injuries and 
Karl Willard's actions. Chambers and Hunn were directed to provide 
``written statements'' regarding their suspicions.
    At approximately 6:45 A.M., Thursday, August 5, 1999, Marshall 
Rhodes was found by nurse Rhonda Brunner unresponsive in his wheel 
chair, and Brunner summoned the St. Charles City Fire Department to 
transport Mr. Rhodes to the St. Joseph Health Center.
    Claywest House officials attributed Mr. Rhodes' injuries to a fall 
from his bed, although his bed consisted of a mattress . . . (balance 
of sentence unclear).
    On Saturday, August 7, 1999, Rhodes died at St. Joseph Health 
Center. Mr. Rhodes' body was sent to Baue Funeral Home for burial.
    Dr. Mary E. Case, the St. Charles County Medical Examiner had 
instituted policies regarding the reporting of certain types of deaths, 
and Baue Funeral Home reported to Dr. Case's office that Marshall 
Rhodes' death involved a subdural hematoma, and on Thursday, August 12, 
1999, Kathleen Diebold of Dr. Case's office contacted Cheryl Davis, 
Director of Nursing, requesting Mr. Rhodes' medical records. During her 
conversation with Kathleen Diebold, Cheryl Davis never mentioned 
anything regarding the suspicions expressed by Chambers and Hunn to her 
and Via on August 4, 1999.
    On August 16, 1999, Jeanne Harper of the St. Louis Office of the 
Missouri Division of Aging talked to Betty Via, the Administrator of 
Claywest House, and Harper tells Via that the incident involving 
Marshall Rhodes must be ``hot lined.''
    On August 17, 1999, the Administrator, Betty Via, emails Charles B. 
Kaiser, III, the President of American Healthcare Management, Inc., the 
manager of Claywest House Healthcare LLC, and the operator of the 
facility, that the incident must be ``hotlined,'' i.e., reported to the 
Division of Aging as suspected abuse.
    Charles Kaiser responds to Betty Via's e-mails stating he 
personally spoke with Jeanne Rutledge of the Division of Aging who told 
him this was not something that needed to be hotlined. This became 
crucial in the trial of the cases, because Jeanne Rutledge testified 
unequivocally that Charles Kaiser had not conveyed the details of the 
incident to her.
    On August 23, 1999, Betty Via, the administrator of Claywest House 
Healthcare LLC, received a page at the Lake of the Ozarks where she was 
attending a seminar relating to skilled care facilities and was advised 
to return to Charles Kaiser's office where she was fired, ostensibly 
for following budgetary policies.
    Dr. Case contacted the St. Charles City Police Department, and 
Detective Michael Miller was assigned to investigate the death of 
Marshall Rhodes II.
    As a result of Detective Miller's investigation, numerous witnesses 
were interviewed and voluminous records were obtained regarding Mr. 
Rhodes' death and the operation of Claywest House Healthcare LLC.
    Succinctly stated, it was determined that Claywest House Healthcare 
LLC was a limited liability company doing business as Claywest House, 
licensed pursuant to the provisions of Chapter 198 RSMo. as a skilled 
nursing facility (hereinafter referred to as ``Claywest House'').
    American Healthcare Management, Inc. (``American Healthcare'') was 
a Missouri corporation organized and existing pursuant to the 
provisions of Chapter 351 RSMo., and it had a management agreement with 
Claywest House whereby American Healthcare controlled the operation of 
Claywest House and received a substantial management fee.
    Charles B. Kaiser III was the President of American Healthcare, 
corporate records of which indicated was owned by Robert D. Wachter and 
R. William Breece.
    Records obtained from the Missouri Division of Aging disclosed that 
Claywest House had received numerous violations as a result of 
inspections and had been in danger of losing its State license as a 
skilled nursing facility. The facility had also been assessed a fine of 
more than $300,000.00 for various deficiencies, but through the 
appellate process had been able to settle for a figure of approximately 
$100,000.00.
    It became very obvious that the management of Claywest House felt 
that they could not afford an abuse case in their facility with all the 
previous problems, and an active cover-up was engaged in.
    Evidence was presented to a grand jury and the following 
indictments were subsequently returned:
    Karl T. Willard was indicted for elder abuse in the first degree as 
proscribed by Section 565.180 RSMo. and subsequently was sentenced to 
10 years in the Missouri Department of Corrections.
    Cheryl Davis, Director of Nursing of Claywest House, was indicted 
for failure to immediately report suspected elder abuse as proscribed 
by Section 565.188 RSMo., a class A misdemeanor, and was acquitted by a 
jury.
    Betty Via, Administrator of Claywest House, was indicted for 
failure to immediately report suspected elder abuse as proscribed by 
Section 565.188 RSMo., a class A misdemeanor. Pursuant to a proffer, 
Via supplied the prosecution with certain documentary evidence, 
including copies of e-mails, and agreed to testify truthfully, 
whereupon the charge against her was nolle prosequied at the conclusion 
of the trial of American Healthcare, Claywest House and Charles B. 
Kaiser III.
    American Healthcare, Claywest House and Charles B. Kaiser III were 
indicted for failure to immediately report suspected abuse as 
proscribed by Section 565.188 RSMo., a class A misdemeanor, and were 
jointly tried by a St. Charles County jury. The jury returned verdicts 
of guilty on each of the three defendants and recommended a fine be 
imposed by the Court and also recommended confinement in the St. 
Charles County Jail for a period of one year for Charles B. Kaiser III, 
the maximum punishment that could be imposed.
    On Thursday, February 6, 2003, the Honorable Ellsworth Cundiff 
sentenced the respective defendants as follows:
    1. American Healthcare Management, Inc., a Missouri corporation, a 
fine of $5,000.00, the maximum punishment permitted under Missouri law 
for the said offense;
    2. Claywest House Healthcare LLC, a Missouri limited liability 
corporation, a fine of $5,000.00, the maximum punishment permitted 
under Missouri law for the said offense; and
    3. Charles B. Kaiser III, President of American Healthcare 
Management, Inc., confinement in the county jail for a period of one 
(1) year as recommended by the jury and a fine of $1,000.00, the 
maximum punishment permitted under Missouri law for the said offense.
    American Healthcare, Claywest House and Charles B. Kaiser III have 
all appealed their sentences, and the appeals are currently pending in 
the Missouri Court of Appeals, Eastern District, at this time, with the 
briefs of the defendants being due August 25, 2003.
    In prosecuting this particular case and investigating other nursing 
home practices, it is apparent that those investing in such facilities 
utilize various corporate entities to limit their individual liability. 
The corporate structure involved in the Claywest House case is rather 
common in the industry.
    It is obvious that the operators take advantage of every possible 
loophole in the applicable statutes to avoid reporting suspected abuse.
    It is apparent that legislation requiring that suspected abuse be 
reported to law enforcement authorities, in addition to the State 
licensing authorities, is needed. Those charged with licensing and 
inspection of facilities are not trained in criminal investigations, 
and therefore many suspected abuses are just not prosecuted.
                Prepared Statement of Joanne Polowy, MSW
    Mr. Chairman, and Members of the Committee, I am appearing before 
you today in my capacity as an advocate for elderly and disabled 
persons who are dependent upon others for their care and protection 
from harm. Based on my many years of experience in State Government 
working on laws, regulations, policy and program development in the 
field of Aging, as well as personal family experiences with both home 
based and nursing home care, I want to let you know that I, and others 
I represent, strongly support the Elder Protection Act (S. 333) being 
considered for passage by the U.S. Congress.
    The establishment of an Office of Elder Justice, an Elder Justice 
Coordinating Council, and an Intra-Agency Elder Justice Steering 
Committee within the Department of Health and Human Services to 
coordinate efforts at a Federal level to prevent, detect, evaluate and 
intervene on behalf of elderly people who are victims of abuse and 
neglect, are essential first steps in the public policy process of 
addressing the issues in Elder Abuse. By in large, the public is 
unaware that this is a national crisis and a major Human Rights issue 
in the United States.
    Large numbers of helpless and dependent elderly and disabled 
persons are being victimized each year, particularly in nursing homes, 
as the for-profit corporations and operators are reaping enormous 
financial gain at the expense of the helpless, by not having to be 
accountable to government as they are given taxpayers money and provide 
sub-standard care. The current approach of not involving law 
enforcement in the investigation of serious complaints of abuse and 
neglect must stop as State personnel responsible for monitoring nursing 
homes and home care agencies are not trained investigators and 
consequently many deaths can be covered up by unscrupulous operators 
and staff.
    I would like to share with you now a story of a case recently 
brought to my attention that illustrates the flaws in the system. It is 
typical of hundreds that others and I who advocate for victims of abuse 
hear over and over. This is a little different, however, as the case 
was brought to my attention not by a family member but by two ethical 
nurses who were stymied and frustrated by ``the State system'' that 
seems to protect operators more than victims. These nurses worked in a 
small nursing home in southeast Missouri. The home had been operated as 
a community facility for many years and was considered both a good 
place to receive care, and a good place to work. A few years ago, 
however, a corporation that now owns 50-60 facilities in Missouri and 
Arkansas purchased the facility. Shortly thereafter the whole 
philosophy of care changed with the appointment of a new Administrator 
and Director of Nursing. Staff hours were reduced, and the focus 
shifted from care to profit. The two nurses ultimately even traveled to 
the corporate headquarters to complain to the owner about the 
deteriorating conditions and the lack of staff. They told him of their 
concerns and that residents were being neglected. He listened and told 
them he would look into it, but nothing changed.
    Then one day a resident with Alzheimer's disease, admittedly 
difficult to handle, started acting up. The Director of Nurses called 
the janitor and with his help dragged the man into the whirlpool room. 
They put him on a hoist, but did not strap him on properly. They then 
dropped him into the whirlpool, but when they were pulling him out he 
fell off the hoist onto the concrete floor and gashed open his head. 
There was blood everywhere. The LPN who told me this story was called 
in to help and to call for an ambulance. Other staff helped clean up 
the blood and the man was taken to the hospital. He died two days 
later. The LPN, herself, called the State Hotline and recorded the 
incident in the nurses' notes. To her knowledge, however, no one from 
the ``State'' ever came to investigate and her notes ``disappeared.'' 
The staff was told to forget about the incident . . . but these nurses 
could not. Both ultimately were fired, and since the Regional Office 
apparently classified the report as unsubstantiated, it is not a public 
record unless there would be a lawsuit filed. In this case, there was 
no family member interested in pursuing it. The reason, I believe, that 
there was no investigation is that State policy for a number of years 
has allowed regional staff to initiate an investigation by calling the 
facility rather than going on-site. Since the administrator probably 
told them that the resident ``fell'' by accident, they apparently 
decided to believe him and therefore did not bother to interview staff 
or look into the matter further.
    Unfortunately, the public and staff in health care facilities do 
not think to call law enforcement in cases such as this, and, even if 
they do, the police think this is not their jurisdiction and funnel the 
report on to the State. It is essential that Federal and State laws 
address this issue, and that the appropriate agencies and prosecutors 
cooperate in these investigations. Nursing home owners fear this step 
and do not want this to happen.
    Another aspect to consider is that the nurses who were involved in 
this case are typical of good caregivers no longer working in long-term 
care. Large numbers of nursing professionals and paraprofessionals no 
longer work in nursing homes due, in large part, to the avarice of the 
owners and the benign neglect of State Government regulators. Many are 
so disillusioned with the abuse and neglect of residents being 
sanctioned by government and the breakdown of the regulatory system 
that they are leaving the long-term care arena. This, too, is a 
critical public policy issue that must be addressed.
    I have volunteered my time since my retirement seven years ago to 
speak up in behalf of the frail elderly who were being abused and 
neglected, particularly in nursing homes, and to assist and give moral 
support to their family members. Even when I was working for the State 
I could see that the bureaucracy was increasingly becoming indifferent 
to the cries for justice coming from families and victims themselves. 
Although I originally thought that the nursing home leaders would be 
helpful in addressing the problem of abuse in their facilities, I 
eventually learned that this really was of no importance to many of 
them. Their interest was in covering up wrong doings and keeping from 
being sued for wrongful deaths. I also saw top-level politically 
appointed administrators whose jobs depended on placating the industry 
passively resist enforcing policies and laws developed to address flaws 
in the system. Laws were strengthened with the help of advocates, but 
often it was the State regulators themselves who found the loopholes to 
avoid appropriate implementation. The influence of the for-profit 
industry has expanded to an unconscionable level in recent years and 
their control of both the Legislative and the Executive branches of 
government is extremely disturbing. Hopefully you will do all in your 
power to respond to the public's repeated pleas for change before you 
and I are helpless, infirm, and dependent on others for our care.
    In summary, let me once again express my strong support of the 
Elder Justice Act and the efforts of Senator Breaux, Senator Bond and 
others of you who are coming to understand the need to address the 
crime of Elder Abuse.
    Thank you for allowing me to testify.
                  Prepared Statement of Betty Willson
    Dear Committee Members: I appreciate this opportunity to tell about 
my experience with nursing home abuse. My mother, who passed away in 
April, 2003, spent six years in our local Beverly, Inc. facility. It 
was a nightmare for both of us. It's not that we didn't make our 
problems known to State; we even formed a family Council to deal with 
the suffering and death we saw (see enclosed copy of a letter we wrote 
to State just last year). As usual, the State cited them for these 
serious problems, let the facility ``correct'' them, and did nothing 
else, even though the facility had a long history of being out-of-
compliance and should have been shut down.
    When my mother suffered two broken ribs and a chipped elbow, it 
could have been prevented by the facility which allowed trainee aides 
to transfer her and other residents over the objections of the CNA who 
reported it to his superiors. Since a monitor was in the facility at 
the time (because of many previous violations), they did not report my 
mother's injuries either to me or to the State. They tried to explain 
to me that she screamed and cried because she had osteoporosis or 
arthritis.
    I finally took her to the hospital myself for X-rays. They had 
plenty of time to send a nurse over to the ``facility friendly'' ER 
doctor to tell him what they had told me, so he told me that all he saw 
on the X-rays was ``some arthritis''. That evening, I got hold of Mom's 
family doctor. He saw the X-rays and made an appointment for Mom the 
next day with a bone specialist. He found two broken ribs and a chipped 
elbow. By this time, Mom had suffered seven pain for over 30 hours, 
with no treatment other than Tylenol.
    Later, a team from State came in, determined what had happened, 
validated my claim of abuse, cited the place for not reporting the 
injuries, and (guess what?) did nothing else. Even the monitor buried 
the incident in her weekly report with only eight words: ``One resident 
received multiple fractures of unknown origin''. We later discovered 
that this ``neutral'' monitor was a former employee of a Beverly 
facility.
    Most abuse is rooted in neglect, and neglect is exacerbated by 
understaffing, undertraining, and the nursing homes' blatant cover-ups 
because they do not fear getting penalties or fines. Facilities are 
almost always aware of imminent inspections, so they have time to bring 
in extra staff, cover up problems, and re-do records, in order to 
obtain good surveys.
    As for abuse, I have seen residents given the wrong medications, 
sitting or sleeping for hours in wheelchairs, falling and suffering 
injuries and even death, not being fed at mealtime, choking to death, 
going for days or weeks without showers or having their teeth brushed, 
teeth rotting out, eyeglasses and dentures lost but not replaced, etc. 
(See our Family Council letter enclosed.)
    The answer to abuse lies in having consistently and strictly 
enforced laws addressing minimum staffing, required training of aides, 
and penalties that fit the crime of elderly abuse. Until we achieve 
those goals, the suffering will go on and on and on . . .
                                 ______
                                 
                         Caregivers Family Council,
                                     Neosho, MO 64850-1726,
                                                     July, 3, 2002.
Mr. H. David Morgan,
Jefferson City, MO 65102-0570.

    Dear Mr. Morgan: Your letter of June 7 to Janet Clayton was 
recently shared with me because my name was mentioned in it. Since I am 
Chairman of our Family Council here at Beverly Healthcare of Neosho, I 
would appreciate it if you would review with me some of the statements 
made in the letter.
    In their May 2 survey, this facility was given two ``J'' tags for 
federal violations, which were dropped to ``H''s. Since they received 
two of these, plus an ``E'' and a ``G'' (plus yet another ``G'' for an 
accident investigation just two months before), we believe these 
violations warrant being moved to ``K''s rather than being dropped back 
to ``H''s. When nine out of 14 residents (60%) were assessed with Stage 
IV bedsores acquired after being admitted, and when the facility has a 
long history of being out of compliance (7 out of the last 8 years), we 
believe it is time to stop giving them more chances to ``correct'' 
their problems, only to repeat them again and again.
    All of their violations also received a State rating of Category 
II, which requires penalties of varying severity. We hope each of these 
violations will receive a penalty, with daily fines being imposed for 
the ``H''s. This facility has had several less stringent penalties in 
the past, but, to our knowledge, has never been given a fine. Such a 
monetary penalty would be the only way to get the attention of a huge 
corporation such as Beverly, Inc. As caregivers, we are convinced that 
daily fines would bring about faster results in obtaining better care 
for our loved ones.
    In paragraph three you stated that ``the pressure sores did not 
show signs of infection''. In the survey, they were described as 
``growing'', ``tunneling'', ``sloughing'', ``undermining tissue'', 
``macerated'', ``containing dead tissue'', etc. A Stage IV pressure 
sore is described on page 22 of the Survey as ``A full thickness of 
skin and subcutaneous tissue is lost, exposing muscle and/or bone''. 
Pressure sores are treatable and preventable and should never be 
allowed to reach this stage where they can cause agonizing pain, shock 
to the body, and death--whether or not the wounds are infected. This 
week, one resident died from the effects of her horrible Stage IV 
pressure sores. This is not the first time this has happened here, and 
we feel the facility should be held accountable.
    In paragraphs 7 and 8, you mentioned the list of concerns I 
presented to a surveyor on behalf of our Family Council at the January 
25 survey. You stated that ``we could not prove the allegations 
contained within Betty Willson's list, except to a sink having lukewarm 
water.'' Why, then, was the facility cited for two of the concerns--
cold water not only in the dining room sink, but also on one hall of 
the facility for weeks, as well as a lack of activities for residents. 
Five more of our concerns on the list became proveable and were cited 
on the 4/2 survey just 10 weeks later. (These were (1) understaffing, 
with aides working 12, 16, and 20 hour shifts; (2) Charts and records 
in disarray: (3) visible sores on patients (especially my mother), (4) 
Bottlenecks of wheelchairs after evening meals, causing late bedtimes 
for patients, and (5) Aides not using rubber gloves and/or handwashing 
between patients to prevent infection.
    I presented our other concerns also: (1) understaffed kitchen 
causing late meals and unbalanced menus consisting mainly of starches: 
(2) numerous serious injuries from falls; (3) wrong medications being 
given; and (4) the facilities apparent foreknowledge of the times of 
State visit plans. We felt that these complaints were evident at the 
time (1/25) we reported them. We do not understand why some could not 
be proved until 10 weeks later.
    At I left the surveyor, I told her CONFIDENTIALLY that there was a 
nurse who was willing to be contacted to verify, or add to, our list of 
concerns. I gave her telephone number, and the hours she could be 
reached. She waited for a call, but was not contacted during the entire 
time of the visit. After the team left, the administrator called her 
``on the carpet'' where she was accused of ``talking to state and to 
residents' caregivers about confidential matters''. Her hours were cut 
to only 8 per week and she was so upset she almost quit, even though 
she had been a loyal employee for over a decade. This incident 
undermined what little faith we had in our confidentiality being 
preserved.
    On January 30, I received a letter from Julie McCarty, the surveyor 
who recorded our list of concerns, stating that ``several residents, 
family members, and staff were interviewed'' (regarding our list). 
However, no member of our Family Council was interviewed, except 
myself. Nor was the nurse who volunteered to be interviewed. The letter 
said, ``records were reviewed'', but if they were, why didn't they 
discover how chaotic they were until 10 weeks later? The letter said 
that ``all shifts were observed'', but members of our Family Council 
were in the facility during the entire time (except for some of the 
late-night shifts) and none of them saw a surveyor in the facility 
after 7 p.m. The after-supper bottlenecks continued.
                   Prepared Statement of Joe Maxwell
    Thank you Senator Bond and Members of the Subcommittee on Aging for 
allowing me to submit written testimony in conjunction with the 
hearings held in Missouri to discuss the issue of nursing home reform 
and efforts at the federal level to pass legislation.
    As the state of Missouri's official advocate for the elderly, I 
would have appreciated the opportunity to testify in person at the 
hearings in Kansas City and St. Louis. In the future, please feel free 
to contact my office when you need assistance in addressing policies 
affecting Missouri seniors and their families.
    I have long advocated and fought for nursing home reform in our 
state. Unfortunately, it is long overdue. As Elderly Advocate, my 
office handles inquiries and concerns from seniors and their families 
on a daily basis. In the last two years, my staff and I have dealt with 
some horrific abuse and neglect cases--far too many of which have 
resulted in death. We've seen seniors who have suffered from severe 
bums or have choked to death due to a lack of proper supervision. We've 
seen far too many cases of sexual abuse. And we've seen bedsores so bad 
that amputation was the only remedy.
    This year, after three years of trying, we were finally able to 
pass meaningful nursing home reform with the passage of The Senior Care 
and Protection Act of 2003 (SB 556/311). This important legislation was 
the product of a bi-partisan effort that included a lot of hard work 
and negotiation on both sides of the aisle.
    The Senior Care and Protection Act of 2003 sought to rid our state 
of the ``bad actors'' in the nursing home industry by holding them 
accountable and making them pay the price for non-compliance, while at 
the same time creating provisions that support the majority of homes 
that do provide good, quality care. The major provisions in SB 556/311 
include:

    Increasing fines for violations and making them stick for the most 
serious violations (prior to this legislation, fines had not been 
increased in Missouri since 1979 and state regulators had not been able 
to collect fines that were levied)
    Increasing accountability for nursing home administrators by making 
it a Class D felony for those who conceal abuse or neglect
    Requiring criminal background checks for all employees, whether 
they live in or out of state
    Requiring background checks for owners by allowing the state to 
consider compliance history in other states before granting them a 
license to do business in Missouri
    Protecting nursing home employees from employer retaliation for 
reporting abuse and neglect

    SB 556 passed both houses of the general assembly with overwhelming 
bipartisan majorities, and enjoyed the strong support of senior 
advocates throughout the state. At the end of the day, the nursing home 
industry was divided among those who could support the bill (some 
reluctantly) and those who finally agreed they could ``live with the 
bill.''
    Missouri's new nursing home law goes into effect next week on 
August 28. I am confident that the laws enacted in this legislation 
will provide our seniors residing in nursing homes with greater 
protections against abuse and neglect.
    I encourage Members of the Committee to take a close look at 
nursing home reform legislation passed in Missouri and other states in 
order to ensure that any federal legislation supports, rather than 
hinders, reform efforts at the state level. I have attached a copy of 
SB 556/311 for your review and would be happy to respond to any 
questions you may have.
               Missouri Coalition For Quality Care,
                                 Jefferson City, MO, 61502,
                                                   August 21, 2003.
Hon. Kit Bond,
U.S. Senate,
Jefferson City, MO, 65101.

    Senator Bond: As a citizen of Missouri and officer of the Missouri 
Coalition for Quality Care (MCQC), I applaud you on your testimony 
before the Committee on Finance on July 17, 2003.
    This past week I was called by your staff to inquire if I would be 
interested in testifying at your field hearings in Kansas City on 
August 19. I was looking forward to this opportunity to express my 
opinions on the subject of elderly abuse and neglect but obviously the 
quota had been reached.
    I have over 15 years experience as a volunteer ombudsman, both in 
Iowa and Missouri. I resigned from the Missouri Ombudsman Program in 
1997 because my reports on serious complaints were not addressed and 
facilities were allowed to dictate the ombudsman's role and 
participation. I joined MCQC in 1998 and find that I can accomplish far 
more than being confined to an unsuccessful ombudsman program.
    The Long-Term Care Ombudsman Program was initiated in 1972, and 
today--31 years later--Missouri only has ombudsmen assigned to 312 
nursing homes out of 1,232 facilities. It is appalling that 920 
facilities (75%) are without an ombudsman who is defined as the primary 
facilitator throughout any complaint or grievance process on the behalf 
of residents. THIS IS A TRAGEDY!
    In your testimony you spoke of the tragic deaths of four elderly 
residents at Leland Health Care Center in University City, MO., in 
April of 2001. I am well aware of this catastrophe and the failure to 
prosecute those responsible. We at MCQC wrote many letters appealing 
for accountability measures. You know the outcome, you spoke of it in 
your testimony. A special MCQC recognition award was presented to the 
paramedics and fire-fighters who responded to the Leland call. It was 
chilling to hear the details of that tragedy. We were sorry you were 
unable to attend the ceremony.
    I've also encountered many heartbreaking, unresolved problems while 
serving as an ombudsman. It is incomprehensible that no one wanted to 
get involved when an elderly couple lost their substantial life 
savings, when they were forced to sell their last possession of 40 
acres for a measly sum of $3,000 so they could receive Medicaid, when 
the wife's guardian failed to enter funds from--sale of property into 
her records, when the gentleman had to wear the same colostomy pouch 
for three days and tie candy wrappers around it to prevent leaking, 
when the gentleman expressed a desire to move to another facility he 
was threatened that he would never see his, wife again because her 
guardian refused to let her move with him--and on, and on, and on. 
However, we took the guardian to court, the judge ruled that the wife 
of 65 years should be with her husband, and we moved this couple to 
another home. They have both passed away within the last two years. We 
saw to it they were not buried in a pauper's grave. They are buried at 
a beautiful country cemetery in Yarrow, MO., with a large granite 
headstone bearing the family name. This gentleman and his wife saved 
their money and planned well, never dreaming they would be so 
victimized.
    Senator Bond, I am proud that you represent us in the U.S. Senate 
and was delighted to hear you comment that nursing home residents and 
their families have suffered and been victimized by problem nursing 
homes for far too long.
    The Missouri Coalition for Quality Care will continue with our 
mission and goal to improve the quality of care and quality of life of 
residents in Missouri's long-term care facilities and recipients of in-
home care.
            Sincerely,
                                     Mrs. Phyllis Krambeck,
                                                    Vice President.
                                 ______
                                 
              Two Areas For Consideration--Henry Krambeck
1. Shortage of Volunteer Ombudsmen and Suggestion for Remediation.
    With the recent move to limit state inspections of nursing home 
facilities in Missouri from two per year to one (and in same instances 
none) it is crucial that all facilities have volunteer ombudsmen on 
board. However, recent statistics indicate that 75% of the nursing 
homes in Missouri do nat have ombudsmen serving in their facilities! 
This is a tragic situation. I believe the student ombudsman program 
implemented at Truman University in Kirksville, MO. (now in its third 
year) would dramatically impact the ombudsman program if duplicated 
state-wide. The accompanying materials explain the program and detail 
its success in this area: ``A Student Ombudsman Project--An Overview'', 
``Need An LTC Ombudsman? Consider This . . .'', ``Local Ombudsmen 
Highlighted in National Publication'' and ``A Success Story''. I hope 
you would have time to peruse these materials.
2. Nursing Home Bill Needed.
    It is a truism that some nursing home administrators do not want 
volunteer ombudsmen in their facility. This attitude immediately 
suggests that the facility is not operating efficiently. It is also a 
fact that some ombudsmen have been terminated by administrators despite 
the fact they were doing a good job of advocating for the residents. In 
many instances these terminations were without due process or just 
cause. Last year I suggested a Bill to Mr. Sam Berkowitz that would 
remedy this situation. Mr. Berkowitz was anxious to sponsor this Bill 
but lost his bid for a Senate seat. The Missouri Coalition for Quality 
Care (a non-profit advocacy group) of which I am a member, is currently 
looking for someone to sponsor the Bill. The Bill would make it 
mandatory for a nursing home to accept an ombudsman if one were. 
available. Further, the ombudsman could be recalled only by the 
regional ombudsman coordinator and only after due process and just 
cause.
    Thank you for your attention to these suggestions. I firmly believe 
that, if implemented, the two ideas stated above would have a profound, 
positive impact on the Missouri state ombudsman program. This would 
result in better care for nursing home residents as well as to provide 
a training vehicle for students planning a career in health services.
                                 ______
                                 
        Truman State University--``A Student Ombudsman Project''
    Eta Sigma Gamma is a national professional health education 
honorary established in 1967. There are approximately ninety-nine 
chapters nation wide. The only Missouri chapter is located at Truman 
State University in Kirksville and is coordinated by Dr. Carol Cox of 
the University. The three elements forming the basic purpose of the 
organization are teaching, research and service. The organization is 
designed specifically for professionals in health education. During the 
year 2001 Dr. Carol Cox came across an article in a periodical relating 
to the ombudsman program. Realizing this was a program that would fit 
well with the objectives of the Honorary, she called the toll free 
number listed in the article. After several subsequent calls she was 
put in contact with the Mark Twain Legal Services in Canton, Missouri 
which is the office of the Regional Ombudsman Coordinator for the area 
wherein the university is located. Arrangements were made for training 
the student participants and this was accomplished.
    On March 14, 2001 I received an email from Clare Wheeler of the 
Canton office requesting that I interact with the eight trained 
students and attempt to place them in suitable facilities in the local 
area. Realizing that time was of the essence (the school year was 
coming to a close) I decided on a plan that would result in maximum 
student placement and one that would provide an ongoing source of 
future participants. It was decided to place student ombudsmen in teams 
of two, preferably a male and female and to initially utilize juniors 
and seniors for obvious reasons. After gaining some experience and with 
the end of the school year in sight, it would be the responsibility of 
the ``experienced'' student ombudsmen to select and indoctrinate their 
successors. We used the analogy of a relay team on a track squad. This 
plan not only made use of a maximum number of students but afforded the 
chosen facilities an opportunity for increased resident/patient 
contacts. It should also be mentioned that some of the students were 
already certified CNA's. Initial placements were made at Northeast 
Regional Health Center and the Twin Pines Adult Care Center Both 
facilities were eager to participate in the program and placement was 
affected following a brief training session with the students and a 
placement staffing involving the students, myself and administrators/
staff of the facility. Although of short duration because of the school 
year, the plan worked well and one of the students elected to remain on 
the job during the summer. I prevailed upon my wife to act as ombudsman 
of the Twin Pines facility during the. summer. She was successful to 
the point that I was considering adding additional student ombudsman to 
that facility under her supervision this school year. Placing a student 
in each wing would make possible a contact with every resident once 
each week - an optimal situation. Unfortunately, recent events at Twin 
Pines relating to staff and communication problems with the facility 
Board of Directors has undermined this unique opportunity.
    Twelve students are participating this school year, four returning 
students and eight new candidates. They have completed training and we 
are in the process of placement. Recently I place two students with Mr. 
Karen Stone, administrator of the LaPlata facility. A few weeks after 
placement I followed up with Mr. Stone to determine if he was satisfied 
with the program and his reaction was immediate. He declared it a 
wonderful program not only for the facility and the residents but for 
the students as well. It is cooperation such as Mr. Stone's that result 
in approaching optimum care for our nursing home residents and hospital 
patients. Dr. Cox and I also have high praise and appreciation for the 
following people who eagerly participated in the initial program: 
Marilyn Powell, former administrator of Twin Pines; Louise Smith former 
social services coordinator of Twin Pines and=Beverly Howard on the 
staff at Northeast Regional Health Center.
    Finally, it should be evident to all concerned that this ``pilot 
program'' is deserving of further implementation and analysis. Dr. Cox, 
my wife and I have contended from the outset that such a program would 
be worthy of implementation state-wide if not nation-wide. Students 
would not necessarily have to be members of a health honorary. Most 
colleges and universities in Missouri have health programs or service 
programs from which these students could be selected. It would provide 
an ongoing source of young, energetic people who are interested in the 
health field for the ombudsman program. Students would benefit 
significantly from the experience, facilities would benefit from the 
additional help and, most of all, the residents/patients would be 
assured of receiving the highest level of care possible. Programs such 
as described above in conjunction with continuing improvement of the 
state-wide ombudsman program could result in significant benefits for 
all citizens.
                                 ______
                                 
               Need An LTC Ombudsman? Consider This . . .
    Are long term care ombudsman volunteers difficult to recruit in 
your area? Would a continuing source of trained ombudsmen volunteers be 
welcome in your community? If your answer to the above questions is a 
resounding ``yes'' you might consider developing a program similar to 
the one currently functioning in Kirksville, Missouri and the 
surrounding community.
    Based on the Truman State University campus in Kirksville, MO is a 
group of students who are members of Eta Sigma Gamma, a national 
professional health education honorary established in 1967. Totaling 
ninety-nine chapters nation wide, only one chapter is located in 
Missouri. Dr. Carol Cox of the university coordinates the program that 
is comprised of three basic elements i.e., teaching, research and 
service. Realizing that the Missouri State Ombudsman program would be a 
perfect vehicle to realize the basic purposes of the honorary, Dr. Cox 
made provisions for her students to receive the necessary training for 
placement as ombudsmen in the surrounding community. Assistance was 
provided by the Regional Ombudsman Coordinator housed in Canton, 
Missouri. Administrators of local Nursing Home facilities, Residential 
Care facilities and the N.E. Regional Health Center were contacted for 
possible placement opportunities. In almost every instance 
administrators were eager to participate in the program. Following a 
pre-placement orientation by a representative of the Canton office, 
students were presented to the facility administrator and staff for a 
placement orientation meeting. A supervised facility tour was then 
undertaken and arrangements made for continuing service. After the 
student ombudsmen achieve some experience a follow-up meeting is 
usually held to discuss any problems or concerns. Students are placed 
in teams of two where possible. Juniors and seniors are placed first 
for obvious reasons. The analogy of a relay team on a track squad is 
used in that student ombudsmen who graduate from the University have 
the responsibility of indoctrinating their successors thus creating a 
continuing source of trained student volunteers. At this date, all of 
the students in the program have been placed and are functioning 
successfully in local facilities within Kirksville and in the outlying 
communities of LaPlata and Queen City.
    It should be stated that the above program could be implemented 
anywhere in the country. Students would not necessarily have to be 
members of a health honorary. Most colleges and universities have 
health or organized programs that are service oriented. Projects 
similar to that described above would tend to keep interested students 
in the health field. (It should be noted that some of the students in 
the Truman project are already CNA's). Students would benefit 
significantly from the experience, facilities would benefit from the 
additional help and, most of all, the residents/patients would be 
assured of receiving the highest level of care possible.
    Finally, the following people should be acknowledged for their 
eager cooperation that led to the initial success of the Truman 
project: Marilyn Powell, former administrator of Twin Pines Adult Care 
Center; Louise Smith, former Social Service Director of that facility; 
Beverly Howard, Administrator with the N.E. Regional Health Center; Nan 
Blickhan, Director of Social Services for that facility and Karen 
Stone, administrator of the LaPlata Nursing Facility in LaPlata, MO.
                                 ______
                                 
          Local Ombudsmen Highlighted in National Publication
    Sara Clouse, Alan Toigo, Henry Krambeck BSwD, MA and Carolyn C. Cox 
PhD,CHES have recently published an article entitled, ``The Student 
Ombudsman Model'' in the nationally recognized journal, ``Annals of 
Long-Term Care - Clinical Care and Aging'' from the American Geriatrics 
Society May 2003 edition. Sara and Alan are both enrolled in the Health 
Science program at Truman University and are members of the national 
professional health and science honorary Eta Sigma Gamma. They 
currently serve as ombudsmen at the LaPlata Long-Term Care facility in 
LaPlata, MO. Mr. Krambeck is it former educational administrator and 
has functioned as an ombudsman in Iowa and Missouri since 1989. He 
currently assists Dr. Cox with the Student Ombudsman Program and serves 
as liaison person for MCQC (Missouri Coalition for Quality Care). MCQC 
has formed a partnership with the twenty member student group. Dr. 
Carolyn Cox is faculty advisor for the award winning Eta Sigma Gamma 
honorary. Dr. Cox originated the Student Ombudsman Model two years ago 
with assistance from Mr. Pat Wheeler and Clare Wheeler, regional 
ombudsman coordinators from Canton, MO. Now in the second year of the 
program, sixteen student ombudsmen serve all facilities in the area 
with one exception including LaPlata, Schuyler County, N.E. Regional 
Health Center, Manor Care and Kirksville Residential Care Center.
                                 ______
                                 
                            A Success Story
    MCQC's alliance with the Truman University Student Ombudsman Model 
continues along successful lines. The program, now in its third year, 
has received local, state and national recognition. Some recent 
accomplishments include: Student participation with the Coalition in 
legislative advocacy activities in Jefferson City; Conclusion of a 
state-wide study, ``Long-term Care Administrators' Perceptions of the 
Ombudsman Program in the State of Missouri'' (in review by the journal, 
The Director; Publication of the Model in the national professional 
journal, ``Annals of Long-Term Care''. In addition, the number of area 
ombudsmen increased six-fold over a two year period with volunteers 
making over two hundred visits to each area facility (Adair and 
surrounding counties), impacting 450. residents. All of the 
participating students have been trained and certified by the Arthritis 
Foundation as PACE (People with Arthritis Can Exercise) Instructors and 
teach senior exercise classes in the area (Adair County). 
Interestingly, some student ombudsmen have changed their major emphasis 
to Health Care Administration in hopes of becoming a nursing home 
administrator after graduation!
    Sadly, approximately 75% of nursing homes in the state do not have 
ombudsmen. With the recommended reduction of state nursing home 
inspections from two visits per year to only one it is critical that an 
ombudsman be an integral component in every facility. A statewide 
adoption of the Student Ombudsman Program as utilized in Kirksville 
could solve the problem. The student volunteers have enjoyed a unique 
bond with residents while positively impacting that individual's life. 
In the process, the students amass that body of knowledge necessary to 
become successful in their chosen career. These students are our health 
providers of tomorrow!

    [Whereupon, at 4:10 p.m., the committee was adjourned.]

                                    

      

</pre></body></html>
